<html>
<title> - PUSHING THE BORDER OUT ON ALIEN SMUGGLING: NEW TOOLS AND INTELLIGENCE INITIATIVES</title>
<body><pre>[House Hearing, 108 Congress]
[From the U.S. Government Printing Office]



 PUSHING THE BORDER OUT ON ALIEN SMUGGLING: NEW TOOLS AND INTELLIGENCE 
                              INITIATIVES

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              MAY 18, 2004

                               __________

                             Serial No. 88

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
93-716                      WASHINGTON : DC
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
WILLIAM L. JENKINS, Tennessee        ZOE LOFGREN, California
CHRIS CANNON, Utah                   SHEILA JACKSON LEE, Texas
SPENCER BACHUS, Alabama              MAXINE WATERS, California
JOHN N. HOSTETTLER, Indiana          MARTIN T. MEEHAN, Massachusetts
MARK GREEN, Wisconsin                WILLIAM D. DELAHUNT, Massachusetts
RIC KELLER, Florida                  ROBERT WEXLER, Florida
MELISSA A. HART, Pennsylvania        TAMMY BALDWIN, Wisconsin
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana                  ADAM B. SCHIFF, California
J. RANDY FORBES, Virginia            LINDA T. SANCHEZ, California
STEVE KING, Iowa
JOHN R. CARTER, Texas
TOM FEENEY, Florida
MARSHA BLACKBURN, Tennessee

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

JEFF FLAKE, Arizona                  SHEILA JACKSON LEE, Texas
MARSHA BLACKBURN, Tennessee          LINDA T. SANCHEZ, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           HOWARD L. BERMAN, California
CHRIS CANNON, Utah                   JOHN CONYERS, Jr., Michigan
STEVE KING, Iowa
MELISSA A. HART, Pennsylvania

                     George Fishman, Chief Counsel

                   Art Arthur, Full Committee Counsel

                        Luke Bellocchi, Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                              MAY 18, 2004

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  From the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  From the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     2
The Honorable Linda T. Sanchez, a Representative in Congress From 
  the State of California........................................     5

                               WITNESSES

Mr. Joe D. Morton, Principal Deputy Assistant Secretary, and 
  Director, Diplomatic Security Service, U.S. Department of State
  Oral Testimony.................................................     8
  Prepared Statement.............................................     9
Mr. Robert L. Harris, Deputy Chief, Border Patrol, Bureau of 
  Customs and Border Protection, U.S. Department of Homeland 
  Security
  Oral Testimony.................................................    11
  Prepared Statement.............................................    12
Mr. John P. Torres, Deputy Assistant Director, Smuggling and 
  Public Safety, U.S. Immigration and Customs Enforcement, U.S. 
  Department of Homeland Security
  Oral Testimony.................................................    14
  Prepared Statement.............................................    17
Mr. Michael W. Cutler, Fellow, Center for Immigration Studies
  Oral Testimony.................................................    19
  Prepared Statement.............................................    22

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress From the State of Texas, and Ranking 
  Member, Subcommittee on Immigration, Border Security, and 
  Claims.........................................................    35
Prepared Statement of the Honorable Linda T. Sanchez, a 
  Representative in Congress From the State of California........    36
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress From the State of Iowa.............................    37
Prepared Statement of the Honorable Elton Gallegly, a 
  Representative in Congress From the State of California........    37

 
 PUSHING THE BORDER OUT ON ALIEN SMUGGLING: NEW TOOLS AND INTELLIGENCE 
                              INITIATIVES

                              ----------                              


                         TUESDAY, MAY 18, 2004

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 2:08 p.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    Today, the Subcommittee on Immigration, Border Security, 
and Claims will examine the operations of the Department of 
Homeland Security and the State Department in deterring and 
preventing alien smuggling into the United States.
    The discovery last month of 110 immigrants from Ecuador, 
Guatemala, and El Salvador imprisoned in a Los Angeles bungalow 
made national news. The large number demonstrates the 
increasing size of alien-smuggling operations reaching the 
United States.
    According to neighbors, the house had operated for 2 years 
with chains and bars around each opening. Evidence indicates it 
had been guarded by pit bulls and smugglers armed with pistols 
and machetes. The smugglers were holding their captive for up 
to $10,000 ransom each from their families.
    This is yet another reminder of the increasingly violent 
and organized operations profiting in this business.
    Prior testimony has revealed that these organizations, 
large and small scale, have regularly used torture, murder, 
kidnapping, rape, extortion, and other criminal acts to guard 
and expand their profits.
    It is a wonder then that some alien smugglers receive so 
little time in prison for their crimes. Currently, Federal 
sentencing guidelines provide a base level sentence of 10 to 16 
months, but even that base can be lowered to 4 to 10 months in 
certain situations.
    One case that stands out is that of Viveros-Flores, a 
foreman for Vasquez fruit harvesting business. Viveros wired 
smuggling fees paid by Vasquez to Mexico so that Mexican 
nationals could illegally enter the U.S. and work for him to 
pay off their smuggling debts. Of the 26 who were smuggled in 
the group, 14 died from severe dehydration in the Arizona 
desert. Most of the others were found in various areas of the 
uninhabited area.
    Viveros-Flores was convicted, as was his boss, of 
conspiracy to smuggle aliens into the United States for the 
purpose of commercial advantage that resulted in the death of 
one or more persons. He was only sentenced to 18 months' 
incarceration. For any heinous crime involving the deaths of 
others, it raises the question of whether sentencing guidelines 
should be reviewed.
    Although stringent sentencing guidelines may help deter 
alien smuggling, attention should be given to stopping alien 
smugglers before they enter the U.S. How many officers has the 
U.S. Government devoted full-time to uncovering alien-smuggling 
networks shipping aliens from South America, Eastern Europe, or 
Southeast Asia?
    Is there a way to disrupt the alien-smuggling rings in 
source and transit countries? Have we been able to cooperate 
with foreign law enforcement in stopping their transit, 
blocking their profits, and providing the U.S. with information 
to stop the smugglers at the border? What more can we do to 
obtain information about the networks?
    The hearing, this hearing, will examine these questions and 
will also examine new initiatives and proposals that might help 
``push the border out'' in combating alien smuggling on all 
levels, such as: strengthening the sentencing guidelines for 
alien smugglers; devoting more resources and officers to 
uncover and disrupt alien-smuggling networks at source and 
transit countries; working with foreign law enforcement to do 
the same; creating a rewards program for informants to provide 
valuable information to law enforcement about alien-smuggling 
operations; creating another ``S'' visa category for alien-
smuggling informants; and providing more outreach to the 
public, informing them of the penalties for assisting in the 
smuggling of aliens.
    Our guests here today include top law enforcement officials 
from the Department of Homeland Security and the State 
Department who will discuss their anti-smuggling operations and 
the tools needed to push out the border on combating alien 
smuggling.
    At this time the Chair recognizes the Ranking Member from 
Texas, Ms. Jackson Lee, for an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman, and 
thank you for this hearing.
    Last week, I had the opportunity and the duty to join with 
members of my community in mourning the loss of some 19 lives, 
individuals, family members, in the Victoria tragedy. Living in 
Houston, Texas, many of us have had to confront these issues 
not only from the larger question that our witnesses will 
discuss, but we've had to embrace it and look at it from the 
human loss and pain.
    At the Mass in which we commemorated and honored those 
lives that were lost, to a one coming to this country for 
economic enhancement and opportunity, to a one victimized by a 
tragic set of circumstances, most uninformed about the ultimate 
end, if you will, the abuse that they were going to undertake, 
maybe even the illegalities of what they were doing.
    In the course of that memorial, I was embraced by one 
survivor who explained that the only thing they desired to do 
was to come to this country for an opportunity. And I embraced 
one wife who lost her husband, who simply wanted to be reunited 
with his family.
    All of them, Mr. Chairman, even with the backdrop of the 
method in which they attempted to enter this country, were 
individuals who were seeking only an opportunity, and all of 
them--all of them--were large and ongoing victims that are 
continuously victimized not only at the Southern border but at 
our airports and our ports of entry, our Northern border, all 
over this Nation.
    Combined with the desire of individuals to come for freedom 
and to come for economic opportunity is, of course, the 
responsibility of this Nation to protect the homeland. To the 
witnesses that are here this morning, you are very much a part 
of that process. And our efforts here in Congress is, I 
believe, best suited or best used if we do no harm, if we try 
to enhance the procedures and provide for the betterment of the 
utilization of the laws that we have or that we improve the 
laws that we have.
    Mr. Chairman, I could not begin this hearing without at 
least establishing the fact that people have died, many of them 
innocently attempting to come to this country on the basis only 
of seeking a better life and opportunity for them and their 
families.
    Last year, 340 people died trying to cross the border. As 
of May 1, 2004, 82 more people have died, and that number will 
soar during the ``death season,'' which is from May to 
September, when the number of crossings is the highest. Many 
have described the horror of the Arizona desert, beautiful in 
its naturalness but deadly for those who seek to cross. This 
must stop. The most effective way to stop large-scale illegal 
immigration would be to establish a sensible immigration 
program. It certainly is not to ignore it. And I believe this 
Committee is committed to not ignoring it.
    Several bills have been introduced recently that would make 
the necessary changes in our immigration laws, such as the 
Comprehensive Immigration Fairness Reform Act of 2004, H.R. 
3918, that would provide access to legalization and a pathway 
to citizenship and a response--and a responsible response to 
the illegal aliens already in this country. But we cannot wait 
for major immigration reform to address certain problems.
    Our Border Patrol agents, both in the North and the South 
and other ports of entry, are constantly having to address this 
question. We must enable them to effectively handle their 
responsibilities.
    I for one have been a strong supporter of increasing the 
resources for our Border Patrol agency, in addition to 
providing enhanced professional development, elevating the GS 
levels to provide commensurate payment with other law 
enforcement agencies, to establish strong recruiting outreach, 
to provide more resources for our Border Patrol to recruit 
good, strong, and committed officers. The Border Patrol is the 
Nation's--is at the Nation's front line of defense in homeland 
security. We need them strong and able.
    And I've had the opportunity to visit and walk along the 
Southern border, and I see the challenges that they are facing. 
We need not only to provide them with the skills training but 
also with the laws that could help enhance their work.
    We must act now to reduce the deaths, and I have introduced 
a bill that would help in achieving that objective, the 
Commercial Alien Smuggling Elimination Act of 2003, CASE Act, 
H.R. 2630. It would do this by establishing a three-point 
program which has been designed to facilitate the investigation 
and prosecution, or disruption, of reckless commercial 
smuggling operations.
    The first point in this program would be to provide 
incentives to encourage informants to step forward and assist 
the Federal authorities to investigate alien-smuggling 
operations, Mr. Chairman, even in front of the actual action. 
Let's stop the kind of tragedy that occurred in Victoria where, 
as the defendant now alleges, he didn't know what he was 
carrying, he didn't know what he was supposed to be doing, as 
he left these human beings, this human cargo, to suffocate in 
the desert and in an area where they could not be found.
    The Immigration and Nationality Act, the INA, presently 
provides a non-immigration classification for aliens who assist 
the United States Government with the investigations and 
prosecution of a criminal organization or terrorist 
organization. My bill would establish a new third category for 
aliens who assist the United States Government with the 
investigation, disruption, or prosecution of alien-smuggling 
operations. Let's stop them in their tracks.
    ``S'' visas are not controversial. Senator Edward Kennedy 
introduced legislation to establish permanent authority for the 
``S'' visa program on September 13, 2001, 2 days after the 9/11 
terrorist attacks. The Senate passed S. 1424 by unanimous 
consent that same day, Republicans and Democrats. The House 
passed S. 1424 by unanimous consent on September 15, 2001. On 
October 1, 2001, President Bush signed the bill into law.
    The ``S'' visa is a useful tool when it is needed, but it 
is not needed frequently. In FY 2004, only 42 ``S'' visas were 
issued to informants and 37 to their family members. In 2003, 
only 30 ``S'' visas were issued to informants and 28 to their 
family members. In FY 2004, through May 13th, only 30 ``S'' 
visas have been issued to informants and 22 to their family 
members. This is not an immigration visa. This is not an 
immigration program. It is an accommodation to make it possible 
for the Government to get its information from informants and 
stop them in their tracks and to save lives.
    The new ``S'' visa classification in my bill would be 
offered to potential informants by the State Department and the 
Justice Department, in addition to the Homeland Security 
Department. Alien smuggling operates across international 
lines. No single Federal agency can deal with it.
    The bill also would establish a rewards program to assist 
in the elimination or disruption of commercial alien-smuggling 
operations in which aliens are transporting--transported in 
groups of 10 or more and where either the aliens are 
transported in a manner that endangers their lives or the 
smuggled aliens present a life-threatening health risk to 
people in the United States.
    This is not a controversial provision either. The rewards 
program in my bill is virtually the same as the one the State 
Department presently uses to obtain informants in cases 
involving terrorists. The State Department rewards program has 
been very successful. Perhaps the most famous example is the 
case last year in which a $30 million reward was given to 
individuals who had provided critical information which led to 
the location of Uday and Qusay Hussein. I believe there was a 
great deal of celebration when those two were brought to 
justice.
    I'm concerned about the safety of people who become 
informants, so my bill also would establish a protection 
program that would be available to investigators and 
prosecutors using informants in connection with investigating, 
disrupting, or prosecuting alien-smuggling operations.
    The second point in the program would be a penalty 
enhancement provision. In the case of a person who has been 
convicted of smuggling aliens into the United States, the 
sentencing judge would be able to increase the sentence by up 
to 10 years. This only would apply to cases in which the 
offense was part of ongoing commercial smuggling operations, 
the operations involving the transportation of aliens in groups 
of 10 or more, and either the aliens were transported in a 
manner that endangered their lives or the smuggled aliens 
presented a life-threatening health risk to people in the 
United States.
    The third point would be an outreach program. This 
defendant is now facing in the Victoria case any number of 
counts that result in the death penalty. He alleges and others 
allege their lack of information. Those who come across in many 
instances allege a lack of information. The third point, it 
would require the Secretary of Homeland Security to develop and 
implement a program to educate the public here and abroad about 
the penalties of smuggling aliens. The program also would 
distribute information about the financial rewards and the 
immigration benefits that would be available for assisting in 
the investigation, disruption, or prosecution of commercial 
alien-smuggling operations.
    Truckers, beware. This is not an innocent business. Lives 
are at stake, even yours. I believe the outreach program is 
long overdue. And I believe this can be a bipartisan bill and 
that the three-point program it would establish would reduce 
the number of deaths from reckless alien-smuggling operations, 
and certainly it would cause and provide for an enhanced 
homeland security, of which all of us are committed to. 
Terrorists are also able to come to the border. We've got to 
find a way to get in front of them and to present solutions 
that can prevent this deadly and terrible challenge on our 
society.
    With that, I yield back.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentlelady from California, 
Ms. Sanchez, for an opening statement.
    Ms. Sanchez. I want to thank the Chairman and Ranking 
Member for convening the Subcommittee hearing today about the 
issue of alien smuggling, and I will try to be brief in my 
remarks.
    The abuse, mistreatment, and danger of alien smuggling 
recently hit home very near to my district in California. Just 
a few weeks ago, I was shocked and saddened when I learned 
about treatment that immigrants in an alien-smuggling ring that 
were located two blocks from my district suffered. Agents from 
the Bureau of Immigration and Customs Enforcement raided a 
small house in Watts where a bungalow was being used as a drop 
house by alien smugglers, and when Federal agents went inside, 
they found over 100 immigrants, mainly from Ecuador, Guatemala, 
and El Salvador. These men, women, and, yes, even children, 
were mercilessly crammed into a--into a single 1,100-square-
foot house, and they were living in the most inhuman of 
conditions.
    The house was in a state of squalor. There were no lights. 
And the aliens were literally stacked one on top of each other. 
The doors of the house were chained so that the immigrants had 
no way to get out, and inside, Federal agents found pistols, 
pellet guns, and machetes that were used to threaten, 
intimidate, and coerce these immigrants into doing whatever the 
smugglers told them to.
    To make matters worse, the only way the alien smugglers 
would release the immigrants from these deplorable and abusive 
conditions was for their families to pay ransoms that ranged 
from $1,500 to $9,000 apiece.
    Now that this smuggling house has been raided, the 
immigrants are the ones who are left in nearly helpless 
circumstances. Their smugglers have abandoned them, they are in 
an unfamiliar country, and they likely have no means of 
contacting their families.
    Sadly, stories like what happened in Watts are not uncommon 
in the Los Angeles area, which has been a hub of illegal alien 
smuggling for years. But as the Watts house illustrates, alien 
smuggling has now become a lucrative business for violent 
criminal organizations that will do anything to make a profit, 
including endangering the lives of the immigrants that they are 
sneaking into the United States.
    More immigrants will suffer abuse or die if we do not get 
tough on alien-smuggling rings and improve law enforcement 
agencies' ability to investigate and apprehend the leaders of 
these smuggling rings.
    H.R. 2630, the Commercial Alien Smuggling Elimination Act, 
or CASE Act, which my colleague Representative Jackson Lee 
introduced and I cosponsored, will do just that. This very 
important bill will increase the prison sentences of alien 
smugglers by up to 10 years. It will also drastically help law 
enforcement investigators of alien-smuggling rings by offering 
rewards up to $100,000 and allowing alien informants, their 
spouses, children, and parents to adjust to LPR status if they 
supply reliable information about smuggling rings.
    Passing the CASE Act is an important step toward shutting 
down alien-smuggling rings, but given the number of immigrants 
who die each year in smuggling rings--in smuggling rings, 
Congress and Federal agencies must do more. I think that 
stopping smuggling rings abroad before they pack immigrants 
into trucks or cargo containers or attempt to smuggle them into 
the United States in other dangerous ways will reduce the 
number of smuggling-related deaths each year.
    I'm interested in hearing the testimony from our witnesses 
about how our agencies can attack alien-smuggling rings at the 
source before more lives are lost and more immigrants are 
exploited.
    Again, I want to thank the Ranking Member Jackson Lee for 
being a leader on this issue by introducing the CASE Act, and I 
thank the Chairman for convening this hearing, and I yield 
back.
    Mr. Hostettler. I thank the gentlelady.
    The Chair will now introduce members of our panel.
    Mr. Joseph Morton was appointed Deputy--Principal Deputy 
Assistant Secretary of State and Director of the Diplomatic 
Security Service on March 26, 2003. He first joined the 
Department of State Office of Security in January 1978. His 
tours of duty include the Dignitary Protection Division, 
Regional Security Officer at U.S. consulates and embassies in 
Munich, Sri Lanka, and Ivory Coast; Office Director for 
Intelligence and Threat Analysis, and Assistant Director for 
International Operations. Mr. Morton graduated from Clemson 
University in 1976 with a bachelor of arts degree in political 
science.
    Mr. Robert L. Harris is the Deputy Chief, U.S. Border 
Patrol. Prior to being selected for his current position, Mr. 
Harris served as the Chief of INS' Intelligence Operations. He 
is a career Border Patrol agent who began his service in 1984 
in the San Diego Patrol sector. He is also a member of the 
Border Patrol Tactical Unit, or BORTAC, and has directly 
participated in the coordination of foreign and domestic 
enforcement operations, to include service in Bolivia, 
Guatemala, and Estonia. Mr. Harris holds a bachelor's degree in 
management and a master's degree in national security strategy 
from the National War College.
    In March 2004, Mr. John P. Torres assumed his current 
position as Deputy Assistant Director for Smuggling and Public 
Safety in the Office of Investigations for U.S. Immigration and 
Customs Enforcement, or ICE. His current responsibilities 
include the programmatic oversight of ICE anti-human-smuggling 
operations. Previously, he oversaw the ICE Newark Field Office 
consisting of 250 special agents and staff throughout the State 
of New Jersey. Mr. Torres has also supervised the Chicago 
Enforcement Branch of the Immigration and Naturalization 
Service. Mr. Torres joined the service as a co-op student in 
1986 in Dallas. In Los Angeles, Agent Torres served as a co-
case agent of the largest counterfeit green card investigation 
at the time, resulting in the arrest of dozens of defendants 
and the seizure of $8 million worth of counterfeit green cards. 
Agent Torres served as one of the first senior special agents 
of the new National Security Unit in Washington, D.C., during 
his tenure at INS headquarters. Agent Torres was the first INS 
agent assigned to FBI Headquarters International Terrorism 
Operations Section in the Osama bin Laden Unit from 1997 to 
2000. He was one of several special case supervisors designated 
by the FBI for the East Africa Embassy bombings and the 
Millennium threat to bomb LAX Airport. Mr. Torres has a 
bachelor of science degree in business administration from 
California State, Dominguez Hills.
    Michael Cutler is currently a fellow at the Center for 
Immigration Studies. He began his 30-year career with the 
Immigration and Naturalization Service as an inspector at John 
F. Kennedy Airport in New York in 1971. He thereafter served as 
an examiner in the Adjudications Branch at the New York 
District Office. In 1975, Mr. Cutler became an INS special 
agent in the Service's New York office. He retired from the INS 
in 2002. Mr. Cutler graduated from Brooklyn College of the City 
University of New York with a B.A. in communication arts and 
sciences.
    Gentlemen, I want to thank you all for being here, and 
without objection, your opening statement in its entirety will 
be put into the record. And you have 5 minutes to summarize 
your remarks, and we'd appreciate it if you could stay as close 
to that 5 minutes as possible.
    Mr. Morton?

    STATEMENT OF JOE D. MORTON, PRINCIPAL DEPUTY ASSISTANT 
  SECRETARY, AND DIRECTOR, DIPLOMATIC SECURITY SERVICE, U.S. 
                      DEPARTMENT OF STATE

    Mr. Morton. Good afternoon, Mr. Chairman and distinguished 
Members of the Subcommittee. Before I begin, I would like to 
extend my sincere gratitude to you and the Members of your 
Subcommittee for this opportunity to share the mission of the 
State Department's Bureau of Diplomatic Security. Secretary 
Powell has long recognized the serious threat that unchecked 
travel document fraud and alien-smuggling operations pose to 
our national security. Through my testimony, I hope to convey 
to the Subcommittee today that the U.S. Department of State 
Bureau of Diplomatic Security is a formidable asset to our 
colleagues at the Department of Homeland Security and to other 
agencies in thwarting alien smuggling before it reaches our 
borders.
    Travel document fraud and alien smuggling are inextricably 
linked crimes. The U.S. passport and visa are the most sought 
after travel documents in the world, and unqualified applicants 
continue to aggressively pursue ways to illegally obtain them 
in their quest for illegal entry into the United States. As the 
law enforcement arm of the Department of State, DS has 
statutory responsibility for ensuring the integrity of the U.S. 
passport and visa process. We are the most widely represented 
U.S. security and law enforcement agency worldwide--with over 
1,400 special agents serving in the United States and overseas 
at U.S. diplomatic missions. We continuously foster cooperation 
with international police and collaborate with American law 
enforcement agencies to combat those who endanger our national 
security.
    In order to expand the frontier of document fraud 
investigations and target the roots of alien-smuggling 
operations, DS recently established 25 investigative positions 
at typically high-fraud overseas posts such as Nigeria, Mexico, 
Thailand, the Philippines, and others. Over the past 6 months, 
approximately 200 individuals have been arrested on fraud-
related charges due to cooperative efforts between DS agents 
and host nation law enforcement officers.
    On the domestic front, DS is making great strides on 
several initiatives designed to enhance the power behind our 
enforcement capabilities. DS successfully petitioned the U.S. 
Sentencing Commission to increase the minimum sentences for 
passport and visa fraud so that, upon their enactment in 
November 2004, our investigations become more attractive for 
prosecution and serve as a deterrent to future criminals. DS 
also applied for admission into the Department of Justice Asset 
Forfeiture Fund to seize the assets of those who profit from 
passport and visa fraud. A decision on our application into the 
fund is imminent. Finally, earlier this year, DS established 
investigative units at 11 U.S. domestic airports to better 
identify individuals traveling on counterfeit passports or 
visas, gather intelligence, and develop effective relationships 
with the Department of Homeland Security, Bureau of Immigration 
and Customs Enforcement, and airport authorities.
    We are also analyzing existing programs to determine if 
similar methods will prove equally effective in combating 
document fraud and alien smuggling. DS and the Department of 
State's Bureau of Consular Affairs jointly established the 
Vulnerability Assessment Unit--an analytical unit used to 
identify vulnerabilities to the visa issuance process and 
specific instances of consular malfeasance and internal 
corruption. DS and CA are looking to expand this concept to 
assess criminal intelligence from our overseas posts and 
domestic passport agencies to better those who seek to corrupt 
the system.
    DS fully subscribes to the belief that interagency 
cooperation leads to investigative success. For this reason, we 
continuously seek to cultivate relationships with our law 
enforcement colleagues so that we can best utilize our 
expertise and unique resources to safeguard our Nation's 
borders.
    Mr. Chairman, I thank you for this opportunity to appear 
before the Subcommittee, and I will be happy to answer any 
questions you and the other Members may have today.
    Thank you again.
    [The prepared statement of Mr. Morton follows:]

                  Prepared Statement of Joe D. Morton

    Good morning Mr. Chairman and distinguished members of the 
subcommittee. Before I begin, Mr. Chairman, I would like to extend my 
sincere gratitude to you and the members of your subcommittee for this 
opportunity to share with you today the mission of the State 
Department's Bureau of Diplomatic Security and our significant role in 
combating alien smuggling. Your interest in our work is greatly 
appreciated.
    Our Secretary, Colin L. Powell, has long recognized the serious 
threat that unchecked travel document fraud and alien smuggling 
operations pose to our national security. Through the Secretary's 
guidance and approval, we have recently expanded our investigative and 
enforcement capabilities in this and related criminal areas. Through my 
testimony, I hope to convey to the subcommittee that Diplomatic 
Security is a formidable asset to our colleagues at the Department of 
Homeland Security and other agencies in thwarting alien smuggling 
before it reaches our borders.

               DIPLOMATIC SECURITY--INVESTIGATIVE MISSION

    More than ever, alien smuggling, terrorism and other transnational 
crimes represent a severe threat to American interests. In response, 
Diplomatic Security (DS) works as a global force in this continuous 
fight for our nation's security. As the law enforcement arm of the 
State Department, DS has statutory responsibility for protecting the 
integrity of the U.S. passport and visa--the ``gold standard'' of 
international travel documents. DS is the most widely represented U.S. 
security and law enforcement agency worldwide--with over 1,400 special 
agents serving in the United States and overseas at U.S. diplomatic 
missions. As our agents assigned to embassies and consulates overseas 
are the primary U.S. law enforcement officers in most nations, DS 
fosters cooperation with international police and collaborates with 
American law enforcement agencies to combat those who endanger our 
national security.
    Travel document fraud and alien smuggling are inextricably linked 
crimes. As the U.S. passport and visa are the most sought after travel 
documents in the world, unqualified applicants continue to aggressively 
pursue ways to illegally obtain them in their quest for permanent 
residency or illegal entry into the United States.
    In 2003, DS witnessed a spike in investigative productivity 
concerning visa and passport fraud. A total of 762 individuals were 
arrested on DS charges--642 for passport fraud, 90 for visa fraud, and 
30 miscellaneous charges. This represented a record year for DS. 
Through the first three months of 2004, DS has arrested 220 
individuals--183 for passport fraud, 12 for visa fraud, and 25 
miscellaneous, putting us on pace to surpass last year's record totals.

                       OVERSEAS FRAUD PREVENTION

    In order to proactively detect fraud and prevent ineligible persons 
from reaching U.S. borders, DS established 25 investigative positions 
at typically high-fraud overseas posts such as Nigeria, Mexico, 
Thailand, the Philippines and others. DS has already experienced 
notable successes with this initiative. Over the past six months, 
approximately 200 individuals have been arrested on fraud or fraud-
related charges due to cooperative efforts between DS agents and host 
nation law enforcement. In one of these cases, DS worked seamlessly 
with the Israeli National Police to disrupt a fraud ring that had 
facilitated U.S. visa applications of previously-deported Israeli 
citizens by securing fraudulent Israeli passports. In another instance, 
the superior relationship between the anti-fraud agent in Jamaica and 
Jamaican law enforcement led to the arrest of 12 individuals and the 
break up of a lucrative fraud ring that operated within the Jamaican 
Passport Office.
    Additionally, our anti-fraud agents have opened over 2000 
investigations and conducted 70 training sessions with Embassy consular 
staff, local immigration and police officials on proactive fraud 
detection methods. By implementing this overseas anti-fraud program, DS 
is expanding the frontier of document fraud investigations and directly 
targeting the roots of alien smuggling operations.

                             DS INITIATIVES

    On the domestic front, DS is making great strides on several 
initiatives designed to enhance the power behind our enforcement 
capabilities. DS petitioned the U.S. Sentencing Commission to increase 
the sentencing guidelines for passport and visa fraud. Scheduled for 
enactment in November 2004, the increased minimum sentences for 
passport and visa fraud will strengthen our borders by making our 
investigations more attractive for prosecution and by serving as a 
deterrent to criminals who might wish to harm the American public.
    DS also applied for admission into the Department of Justice Asset 
Forfeiture Fund. Our investigations indicate that travel documents are 
a high-value commodity--commanding as much as $25,000 for one U.S. 
visa. With forfeiture capabilities, DS will be able to seize the assets 
of those who profit from passport and visa fraud and further cripple 
these unlawful operations. A decision on our application into the fund 
is imminent.
    Earlier this January, DS established investigative units at 11 
international airports to better identify individuals traveling on 
counterfeit travel documents, gather intelligence, and develop 
effective relationships with Department of Homeland Security, Bureau of 
Immigration and Customs Enforcement (ICE) and airport authorities. Over 
the first three months of the program, 15 individuals were arrested and 
another 16 were denied entry into the United States.

                       EXAMINING NEW INITIATIVES

    We are also analyzing several of our successful existing programs 
to determine if similar methods would prove equally effective in 
combating document fraud and alien smuggling.
    The most striking example of our cooperation with other entities is 
our partnership with the State Department's Bureau of Consular Affairs 
(CA). An outgrowth of our shared mission to protect the integrity of 
the passport and visa issuance process, DS and CA joined together to 
promote a proactive, zero-tolerance policy on passport and visa 
malfeasance. One joint initiative was the establishment of the 
Vulnerability Assessment Unit, which analyzes consular data, systems 
and procedures to identify vulnerabilities to the visa issuance process 
and specific instances of consular malfeasance and internal corruption. 
Based upon the successes of this proactive analytical unit, DS and CA 
are looking to expand this concept to encompass external fraud and 
alien smuggling. When this external fraud unit is formally instituted, 
DS and CA will be better able to assess criminal intelligence and fraud 
information from our overseas posts and domestic passport agencies to 
better target visa and passport brokers who seek to corrupt the system.

           COORDINATION WITH DEPARTMENT OF HOMELAND SECURITY

    No discussion on DS' alien smuggling initiatives would be complete 
without highlighting our developing relationship with our colleagues in 
the Department of Homeland Security. Our two agencies are bound by 
mutual interests--specifically with regard to passport and visa fraud 
aspects of alien smuggling investigations. In addition to our airport 
investigative initiative, DS is working with DHS Bureau of Immigration 
and Customs Enforcement (ICE) to establish a liaison position and 
facilitate communication between our agencies. DS expects this position 
to be staffed within the next two months. Additionally, to increase the 
effectiveness of our overseas anti-fraud investigations, we look 
forward to working collaboratively with DHS overseas attaches and 
immigration inspectors and to benefit from their relationships with 
host government officials.
    As an example of existing cooperation between DS and DHS, we 
recently began providing support to ICE on their investigations of 
cases involving the Protect Act of 2003--legislation that allows U.S. 
law enforcement to prosecute U.S. citizens who commit illicit sexual 
acts against minors abroad. Due to the presence of DS agents in 
countries struggling to combat the child sex trade, DS assists 
investigators by collecting evidence, interviewing alleged victims and 
attending court proceedings. To date, DS agents have assisted in 13 
cases, resulting in seven arrests in Southeast Asia and Central 
American and two prosecutions in the United States.

                               CONCLUSION

    DS travel document fraud investigations go hand-in-glove with 
combating alien smuggling. We fully ascribe to the belief that inter-
agency cooperation breeds investigative success. For this reason, 
Diplomatic Security continuously seeks to cultivate relationships with 
our law enforcement colleagues so that we can best utilize our 
expertise and unique resources to safeguard our nation's borders.
    Mr. Chairman, I thank you for this opportunity to appear before 
this subcommittee and I will be happy to answer any questions you and 
the other members may have.

    Mr. Hostettler. Thank you, Mr. Morton.
    Mr. Harris?

  STATEMENT OF ROBERT L. HARRIS, DEPUTY CHIEF, BORDER PATROL, 
  BUREAU OF CUSTOMS AND BORDER PROTECTION, U.S. DEPARTMENT OF 
                       HOMELAND SECURITY

    Mr. Harris. Chairman Hostettler, Ranking Member Jackson 
Lee, and distinguished Subcommittee Members, it is my honor to 
have the opportunity to appear before you today to discuss our 
efforts to prevent and deter the illegal entry and smuggling of 
undocumented aliens into the United States. My name is Robert 
L. Harris, and I'm the Deputy Chief of the United States Border 
Patrol. I would like to begin by giving you a brief overview of 
our agency and mission.
    As you know, on March 1, 2003, Border Patrol agents and 
inspectors from Legacy INS, Agriculture, and Customs merged to 
form a new agency: U.S. Customs and Border Protection. CBP is 
located within the Border and Transportation Security 
Directorate of the Department of Homeland Security. Now, for 
the first time in our Nation's history, agencies of the United 
States Government with significant border responsibilities have 
been brought together under one roof. With our combined skills 
and resources, we are more effective than we were as separate 
agencies.
    Customs and Border Protection is the single agency 
responsible for providing security along our Nation's borders 
both at and between official ports of entry. The priority 
mission of CBP is to detect and prevent terrorists and 
terrorist weapons, including weapons of mass destruction, from 
entering the United States. However, our traditional mission of 
detection, interdiction, and poverty of smuggling and illegal 
entry of immigrants, drugs, currency, and other contraband is 
also critical to U.S. national security. The current CBP staff 
of over 40,000 employees takes this mission very seriously.
    Illegal migration and alien smuggling are serious problems, 
and the impact is far-reaching. We recognize that an 
uncontrolled border presents great concern, spreading border 
violence, and degrading the quality of life in border 
communities. More importantly, this type of criminal activity 
violates the very principles of our great Nation.
    The Border Patrol, as part of CBP, operates under a 
comprehensive national strategy designed to gain and maintain 
control of our Nation's borders. Our operations have had a 
significant effect on illegal migration along the Southwest 
border. Our strategy relies on the proper balance of personnel, 
equipment, technology, and border infrastructure. Cities like 
San Diego, El Paso, and McAllen have experienced decreased 
crime rates and an overall improvement in the quality of life 
for border communities. These successes are due in part to the 
work of our agents and the effectiveness of our strategy. 
Through it all, we have maintained and encouraged positive 
relationships with local communities and law enforcement 
agencies operating within the immediate border area--Federal, 
State, local, and tribal.
    In order to effectively attack the smuggling threat, CBP 
also recognizes the need and importance of working jointly with 
our counterparts. By working together, sharing intelligence and 
resources, and with your continued support, we will continue to 
make a difference.
    In recent years, unscrupulous alien smugglers have moved 
migrants into more remote areas and hazardous terrain and 
extreme conditions. As smuggling tactics and patterns have 
shifted, our strategy has been flexible enough to meet these 
challenges. For example, we have implemented a Border Safety 
Initiative along the entire Southwest border. Striving to 
create a safer border environment, we proactively inform 
migrants of the hazards before crossing the border illegally 
and have established Border Search, Trauma, and Rescue, or 
BORSTAR, teams to provide quick response to those in life-
threatening situations. In the past 3 years, our BORSTAR agents 
have rescued over 4,000 people in distress. We have developed 
public service announcements for television, radio, and 
newspaper agencies, both in the United States and in Mexico, 
warning against the dangers of smuggling and illegal entry.
    Our agency is tasked with a very complex, sensitive, and 
difficult job, which historically has presented immense 
challenges. The challenge is huge, but it is a challenge that 
the agents and officers of CBP willingly accept. Our men and 
women are proud to serve the American people.
    Before closing, I would like to thank you, Mr. Chairman, 
for your recent recognition of the death of Agent James Epling. 
Your thoughts were conveyed in person to his family and were 
very much appreciated. Agent Epling's sacrifice serves as an 
unfortunate reminder that alien smuggling poses a serious 
threat not only to aliens but also to our agents.
    I would like to thank the Subcommittee for the opportunity 
to present this testimony today, and I would be pleased to 
respond to any questions that you may have.
    [The prepared statement of Mr. Harris follows:]

                 Prepared Statement of Robert L. Harris

    CHAIRMAN HOSTETTLER, RANKING MEMBER JACKSON LEE, AND DISTINGUISHED 
SUBCOMMITTEE MEMBERS, it is my honor to have the opportunity to appear 
before you today to discuss efforts to prevent and deter the illegal 
entry and smuggling of undocumented aliens into the United States 
through the operations and law enforcement initiatives of the United 
States Border Patrol, now a component of U.S. Customs and Border 
Protection (CBP). My name is Robert L. Harris, and I am the Deputy 
Chief of the CBP, Office of the United States Border Patrol (OBP). I 
would like to begin by giving you a brief overview of our agency and 
mission.
    It has been just over a year now that Immigration Inspectors and 
the U.S. Border Patrol from the Immigration and Naturalization Service 
(INS), Agricultural Inspectors from the Animal and Plant Health 
Inspection Service (APHIS), and Customs Inspectors from the U.S. 
Customs Service merged to form the U.S. Customs and Border Protection 
(CBP) within the Border and Transportation Security (BTS) Directorate 
of the Department of Homeland Security. With a unified presence, focus 
and determination, we have combined our skills and resources to be far 
more effective than we were when we were separate agencies.
    The Border Patrol is continuing to provide Homeland Security along 
our Nation's borders between ports of entry, patrolling and securing 
4,000 miles of international land border with Canada and 2,000 miles of 
international land border with Mexico. We also patrol roughly 2,000 
miles of coastal waters surrounding the Florida Peninsula and Puerto 
Rico. We work hand in hand with CBP Officers that inspect people and 
cargo entering the country through ports of entry. While the priority 
mission of CBP is to detect and prevent terrorists and terrorist 
weapons, including weapons of mass destruction, from entering the 
United States, we also interdict illegal immigrants, drugs, currency 
and other contraband.
    Alien smuggling into our country is a serious problem to those who 
live and work in the border community, but its impact and the 
associated criminal activity that accompanies it is far-reaching. An 
uncontrolled border presents great concern, spreading border violence, 
and degrading the quality of life in border communities and other 
affected locations.
    In the shadow of a comprehensive national strategy designed to gain 
and maintain control of our Nation's borders, major initiatives such as 
Operation Hold the Line, Operation Gatekeeper, and Operation Rio Grande 
have had great border enforcement impact along the Southwest Border. 
Today, newer initiatives, such as the Arizona Border Control Initiative 
(ABC) will continue to have a significant effect on illegal migration. 
These initiatives have sought to bring the proper balance of personnel, 
equipment, technology and infrastructure into areas experiencing the 
greatest level of illegal activity on the southwest border.
    As you are well aware, the restructuring that occurred last year to 
create the Department of Homeland Security resulted in combining all 
investigators under one roof, into U.S. Immigration and Customs 
Enforcement (ICE), and all border enforcement under CBP. To proactively 
facilitate this transition, CBP teamed up with ICE and established 
guidelines to minimize any conflicts between Agencies.
    CBP recognizes the need to work jointly with ICE and other 
investigative units in an effort to maximize results. Our intent is to 
work together, share intelligence and develop cases that will then be 
investigated and prosecuted to the fullest by the proper Agency.
    Recent discussions and negotiations with ICE personnel resulted in 
a five point agreement, ensuring that there will be continued coverage 
and investigation of alien smuggling along the border, as well as 
promoting the ``One Face at the Border'' concept. It will further 
ensure that investigations of all categories of smuggling cases will 
continue either by Border Patrol or ICE. In cases where appropriate, 
both will carry on together for successful prosecution and dismantling 
of major organizations, as has been done in the past.
    Along the northern border we continue to expand the successful 
Integrated Border Enforcement Teams (IBET), sharing intelligence, and 
coordinating and conducting joint operations with federal, state, and 
local law enforcement agencies.
    Along the southern border, and most recently in the McAllen Sector, 
we have brought together several components within CBP and ICE in an 
effort to address a trend utilized by smuggling organizations at our 
local Ports of Entry. As a result of collective efforts, the Fraud, 
Intelligence, Smuggling and Terrorist Team (FIST) was formed, with CPB 
Officers and Border Patrol Agents, and Special Agents from ICE. FIST 
addresses Category III cases, such as fraudulent and imposter documents 
which are used to attempt illegal entry through our Ports of Entry and 
at Border Patrol Checkpoints. This collaborative effort has resulted in 
several arrests, and reinforces the dedication and combined efforts of 
these components, maximizing our efforts through proper communication, 
shared intelligence and joint operations, providing the American people 
with the best possible protection.
    Our Intelligence Program has been designed to intertwine all 
intelligence assets within CBP and other Law Enforcement Agencies and 
to provide predictive interdiction intelligence to our Sector field 
managers to more effectively utilize their assets and maximize their 
efforts. We have expanded and restructured the Border Patrol Field 
Intelligence Center (BORFIC) in El Paso, Texas, both in additional 
building space, and in manpower to more effectively provide real 
interdiction intelligence to the field.
    BORFIC is responsible for providing daily reports to Border Patrol 
Headquarters and field managers throughout the U.S. They provide daily 
wrap-ups of all intelligence reports, request for information in 
support of CBP and OBP, all Sectors and other Agencies. BORFIC 
coordinates intelligence information from a variety of sources. By 
placing Senior Intelligence Agents directly with these agencies, BORFIC 
is able to gather information and disseminate it more quickly to the 
field for immediate use.
    Nationally, the Border Patrol is tasked with a very complex, 
sensitive and difficult job, which historically has presented immense 
challenges. The challenge is huge, but one which we face everyday with 
vigilance, dedication to service, and integrity. I would like to thank 
you again, Mr. Chairman, and the entire Subcommittee, for the 
opportunity to present this testimony today, and for your past support 
of CBP and the Department of Homeland Security. I would be pleased to 
respond to any questions that you may have at this time.

    Mr. Hostettler. Thank you, Mr. Harris.
    Mr. Torres?

    STATEMENT OF JOHN P. TORRES, DEPUTY ASSISTANT DIRECTOR, 
   SMUGGLING AND PUBLIC SAFETY, U.S. IMMIGRATION AND CUSTOMS 
       ENFORCEMENT, U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Torres. Mr. Chairman and Members of the Subcommittee, 
thank you for the opportunity to address you about the efforts 
on the part of the United States Immigration and Customs 
Enforcement--ICE--to combat criminal organizations engaged in 
human smuggling and trafficking.
    As the largest investigative arm of the Department of 
Homeland Security, ICE is responsible for identifying and 
shutting down the vulnerabilities in our Nation's border, 
economic, transportation, and infrastructure security. Our 
agency seeks to prevent terrorist acts and criminal activity by 
targeting the people, money, and materials that support 
terrorist and criminal organizations.
    In that mission, we recognize that human smuggling and 
trafficking of persons into the United States constitute a 
significant risk to national security and public safety. We 
know that these smuggling and trafficking pipelines serve as a 
conduit for undocumented aliens and criminals seeking entry 
into the United States. Moreover, terrorists and extremist 
organizations seeking to gain entry into the United States in 
order to carry out their own destructive schemes could just as 
easily exploit these pipelines.
    The United States is a primary target destination for 
smugglers and traffickers, which means that literally tens of 
thousands of men, women, and children are entering the Nation 
illegally each year--undocumented, undetected, and unprotected. 
This international criminal market is extraordinarily 
lucrative, generating an estimated $9.5 billion in profit for 
the criminal organizations worldwide. In many cases, these 
profits fuel additional criminal enterprises, such as the 
trafficking of drugs, weapons, or other contraband, or the 
funds are laundered and invested in legitimate business 
enterprises. These untraced profits feed organized crime 
activities, undermining governmental action and the rule of 
law, while allowing these criminal networks to grow stronger, 
more resilient, and more dangerous.
    Just over a year ago, May 2003, as Congresswoman Jackson 
Lee mentioned in her opening statement, police discovered 
dozens of undocumented migrants--men, women, and children--
locked in a hot, airless tractor-trailer outside Victoria, 
Texas. The trailer, originally bound for Houston, had been 
unhitched and abandoned 175 miles from the Mexican border in 
ultimately a botched smuggling job. In the hours that followed, 
the victims grew more and more desperate for air. They scraped 
at the insulation in the doors and beat their way through the 
tail lights in a futile effort to escape. Ultimately, 19 people 
died in the trailer, including a 7-year-old boy in the arms of 
his father. It was the deadliest case of human smuggling in the 
United States in 15 years.
    As this case illustrates, smugglers and traffickers show a 
shockingly callous disregard for the lives in their charge. In 
too many cases, the victims flee poverty or abuse, only to be 
forced to travel in squalid conditions without adequate food, 
water, or air. Arriving at their destinations, they are 
frequently subject to brutal violence, forced labor, and sexual 
exploitation. Smuggling all too often lead the way to cruelty, 
slavery, and servitude--assaults on the basic freedoms and 
human dignity.
    ICE's strategy, combining authorities, innovative 
methodologies has proven effective. In the Victoria case, ICE 
worked closely with other DHS components, local law 
enforcement, and intelligence and enforcement agencies in 
Mexico and Guatemala. In 1 month's period, ICE's coordinated 
approach led to the arrest and prosecution of 14 defendants in 
the United States and abroad.
    This success was the foundation for a new model for 
fighting smuggling, which we have now taken to Arizona. ICE 
assembled a task force known as ``Operation ICE Storm'' to 
combat violent crime in the Phoenix metropolitan area. We 
brought our expertise in immigration, customs, and money-
laundering investigations into a partnership with other 
stakeholders at the Arizona border. Since we've launched ICE 
Storm, we've prosecuted more than 190 defendants for human 
smuggling, kidnapping, money-laundering, and weapons and drug 
violations. We've seized over 100 weapons and over $5.2 
million. Every time we confiscate as assault weapon or cash 
from these criminal organizations, and every time we trace back 
and shut down one of their funding streams, we make it harder 
for these criminals to conduct business.
    ICE is also working to address the exploitative dimension 
of human trafficking. A disturbingly large number of 
trafficking cases center on women and children forced into 
prostitution and sexual slavery.
    ICE is working closely with the Department of Health and 
Human Services, the Department of Justice, and various 
nongovernmental organizations to assist the victims of 
trafficking. Furthermore, since March of 2002, in close 
coordination with our partners at U.S. Citizenship and 
Immigration Services, 371 victims of trafficking received ``T'' 
visas enabling the victims to remain in the United States, 
without fear of removal, to assist law enforcement in 
dismantling those networks.
    In conclusion, smuggling and trafficking in human beings 
are not all new practices. They are criminal methods with a 
long history. What is new is the sophistication of the criminal 
and terrorist organizations that benefit from the speed and 
efficiency of today's telecommunications, transportation, and 
financial networks. What is new is the war we are fighting 
against the criminals and the terrorists, the tactics, the 
tools, the strategies that we must bring to bear to defeat 
them. ICE is dedicated and committed to this mission. We look 
forward to working with the Committee in our efforts to save 
lives and secure our national interests.
    Mr. Chairman, with the Subcommittee's indulgence, I would 
like to share with you a short video that illustrates the 
tremendous violence surrounding smuggling and also further 
highlight ICE's efforts to combat violence.
    Mr. Hostettler. Without objection, Mr. Torres. If you could 
also give us a preface to this video clip that you are going to 
show us.
    Mr. Torres. Sure. In this video that we are going to roll 
here shortly, it relates back to a case in Arizona where there 
was a shootout of one rival smuggling gang trying to basically 
hijack smuggled victims from another smuggler's network, and it 
ended up in a shootout on the freeway. And we will roll that 
video here.
    [Video played.]
    Mr. Torres. What that demonstrates is how violent the 
organizations have become, and that the smugglers are really in 
this for the profit. What you see here is what looks like a 
vehicle accident. What was happening here actually was one 
smuggler--one set of smugglers was waiting on the side of the 
freeway with advance intelligence that another smuggler would 
be bringing aliens past them. They interdicted the car. The 
second set of smuggled aliens refused to pull over, and a 
shootout resulted in the death of several people in the car, 
which then ultimately resulted in a major investigation from 
ICE and helped us to actually launch ICE Storm. That wasn't the 
reason we launched it, but it was another reason why we need to 
get on the ground much more quickly.
    Mr. Hostettler. This is in the Phoenix area?
    Mr. Torres. Right. And then continuing on in the Phoenix 
area is what your typical drop house may look like with the 
video here. As we talked about earlier, I heard in the opening 
statements of numerous aliens being held in a house in squalid 
conditions, and in several cases in the Phoenix area, our 
agents conducting search warrants have come upon situations 
where people were being held against their will, women were 
being raped and in some cases being threatened with their hands 
and feet to be cut off if the ransoms were not being paid.
    One thing I can mention is that the Phoenix police chief, 
as a result of ICE Storm, is crediting our operations with a 
17-percent decrease in the murder rate in Phoenix, as well as 
an 82-percent decrease in the migrant alien hostage-taking 
cases that are out there in Phoenix.
    That pretty much concludes the tape presentation here.
    I will finish by saying I hope my remarks today have been 
helpful and informative, and I thank you for inviting me, and I 
will gladly take your questions.
    [The prepared statement of Mr. Torres follows:]

                  Prepared Statement of John P. Torres

    MR. CHAIRMAN AND MEMBERS OF THE SUBCOMMITTEE, thank you for the 
opportunity to address you about the efforts on the part of U.S. 
Immigration and Customs Enforcement (ICE) to combat criminal 
organizations engaged in human smuggling and trafficking.
    As the largest investigative arm of the Department of Homeland 
Security (DHS), ICE is responsible for identifying and shutting down 
vulnerabilities in the nation's border, economic, transportation, and 
infrastructure security. Our agency seeks to prevent terrorist acts and 
criminal activity by targeting the people, money, and materials that 
support terrorist and criminal organizations.
    In that mission, we recognize that human smuggling and trafficking 
in persons into the United States constitute a significant risk to 
national security and public safety. We know that these smuggling and 
trafficking pipelines serve as a conduit for undocumented aliens and 
criminals seeking entry to the United States. Moreover, they could just 
as easily be exploited by terrorist and extremist organizations seeking 
to gain entry into the United States in order to carry out their own 
destructive schemes.
    I would initially like to provide an important clarification and 
necessary distinction between the terms ``human smuggling'' and 
``trafficking in persons.'' Human smuggling and trafficking in persons, 
while sharing certain elements and attributes and in some cases 
overlapping, are distinctively different offenses. Both practices 
encompass the organized and illicit movement of men, women, or children 
across or within national borders. Human trafficking, specifically what 
U.S. law defines as ``severe forms of trafficking in persons,'' 
typically involves force, fraud or coercion, and occurs for the purpose 
of forced labor or commercial sexual exploitation. Smuggling and 
trafficking also differ with regard to the time frame of the offense. 
Human smuggling organizations typically generate short-term profits 
based on smuggled migrants. On the other hand, trafficking 
organizations frequently look to generate both short-term and long-term 
profits by forcing their victims into forced labor or commercial sexual 
exploitation arrangements.
    The United States is a primary target destination for smugglers and 
traffickers, which means that literally tens of thousands of men, women 
and children are entering this nation illegally each year--
undocumented, undetected and unprotected. This international criminal 
market is extraordinarily lucrative, generating an estimated $9.5 
billion in profit for criminal organizations worldwide. In many cases, 
these profits fuel additional criminal enterprises, such as the 
trafficking of drugs, weapons, or other contraband, or the funds are 
laundered and invested in legitimate business enterprises. These 
untraced profits feed organized crime activities, undermining 
governmental action and the rule of law, while allowing these criminal 
networks to grow stronger, more resilient, and more dangerous.
    I would like to emphasize that our concern with human smuggling and 
trafficking goes far beyond matters of security and law enforcement. 
There is another critical dimension to this issue--the real cost in 
human suffering and exploitation that too often accompanies this 
criminal practice, posing a moral challenge here in the U.S. and across 
the globe.
    In May 2003, police discovered dozens of undocumented aliens--men, 
women, and children--locked in a hot, airless tractor-trailer outside 
Victoria, Texas. The trailer, originally bound for Houston, had been 
unhitched and abandoned 175 miles from the Mexico border in a botched 
smuggling job. In the hours that followed, the victims grew more and 
more desperate for air--scraping at the insulation in the doors and 
beating their way through the taillights in a futile effort to escape. 
Ultimately, 19 people died in that trailer, including a seven-year-old 
boy. It was the deadliest case of human smuggling in the United States 
in fifteen years.
    Or consider the situation that developed in Arizona last year. The 
rapid influx of smuggling organizations into Phoenix and the 
surrounding area brought indiscriminate kidnapping of groups of 
undocumented aliens, along with shootings and highway carjackings of 
smuggling loads. These lawless actions represent a new level of 
criminal behavior and savage violence. In October 2003, ICE Agents and 
Phoenix Police Officers rescued ten undocumented aliens who had been 
held hostage by smugglers. The smugglers had raped three women, and 
during negotiations with undercover agents, they threatened to rape a 
nine-year-old child and sever the hands and feet of another smuggled 
alien. Ultimately, five defendants were arrested and prosecuted for 
kidnapping and hostage-taking violations.
    As these cases illustrate, smugglers and traffickers show a 
shockingly callous disregard for the lives in their charge. In too many 
cases, the victims flee poverty or abuse, only to be forced to travel 
in squalid conditions without adequate food, water, or air. Arriving at 
their destinations, they are frequently subject to brutal violence, 
forced labor, and sexual exploitation. Smuggling and trafficking all 
too often lead the way to cruelty, slavery, and servitude-assaults on 
basic freedoms and human dignity.
    ICE strategic goals are to dismantle the criminal and terrorist 
organizations that smuggle or traffic in people; to strip away their 
assets and profit incentive; and to work with our allied DHS components 
to attack these organizations from a variety of angles. One of the 
agency's most effective weapons is our Office of Investigations, which 
applies a vast array of investigative methodologies in the fight 
against both criminal and terrorist organizations as well as the 
infrastructure that supports their activities in the United States and 
around the world.
    ICE's brings to bear all of our authorities, expertise, and 
resources--including the application of smuggling, trafficking and 
money laundering statutes and the identification and seizure of assets 
and criminal proceeds--in the fight against human smuggling and 
trafficking. Moreover, as part of ICE's ``Cornerstone'' economic 
security initiative, our financial investigators identify and shut down 
the methods that smugglers, traffickers, and other criminal and 
terrorist organizations use to exploit financial systems to earn, move, 
and store their criminal proceeds.
    Our specialized investigative teams are prepared to respond to 
critical smuggling incidents as swiftly as possible. Smuggling and 
trafficking cases are complex, so our teams of agents have specialized 
skills--investigators, language specialists, financial investigators, 
forensic investigators, and others. This helps us deploy our resources 
more readily when an incident occurs, whether it is at the border, at a 
maritime port, or in the interior.
    ICE's strategy, combined authorities, and innovative methodologies 
have proven effective. In the Victoria, Texas, case, ICE worked closely 
with other DHS components, local law enforcement, and intelligence and 
enforcement agencies in Mexico and Guatemala. Our unique combination of 
investigative tools allowed us to follow the money, pinpoint the 
conspirators, and bring them to justice. In one month's period, ICE's 
coordinated approach led to the arrest and prosecution of 14 defendants 
in the United States and abroad.
    This success was the foundation for a new model for fighting 
smuggling, which we've now taken to Arizona. ICE assembled a task force 
known as ``Operation ICE Storm'' to combat violent crime in the Phoenix 
metropolitan area. We brought our expertise in immigration, customs, 
and money laundering investigations into a partnership with other 
stakeholders at the Arizona border. Since we launched ICE Storm, we've 
prosecuted more than 190 defendants for human smuggling, kidnapping, 
money laundering, and weapons and drug violations. We've seized over 
100 weapons and over $5.2 million. Every time we confiscate an assault 
weapon or cash from these criminal organizations, and every time we 
trace back and shut down one of their funding streams, we make it 
harder for these criminal to conduct business. Furthermore, our efforts 
are producing additional positive results. For example, the Phoenix 
Police Department credits ICE Storm with a 17 percent decline in 
homicides and an 82 percent decline in migrant related kidnappings in 
the final quarter of 2003.
    We're building on ICE Storm's success with DHS' Arizona Border 
Control initiative, in which the vigorous application of money 
laundering and other federal and state statutes is depriving smuggling 
organizations of the criminal proceeds, disrupting their operations and 
decimating their organizational hierarchies in the United States and 
abroad.
    ICE is also working to address the exploitative dimension of human 
trafficking. A disturbingly large number of trafficking cases center on 
women and children forced into prostitution and sexual slavery. In 
virtually all of these cases, the victims have been promised jobs, 
marriages, or other new opportunities, only to find themselves trapped 
in a web of exploitation and abuse.
    We've stepped up our investigations of these exploitative practices 
and we're getting results. In January, a man in McAllen, Texas, who 
headed a sex slavery ring at the border, was sentenced to 23 years in 
prison. In New Jersey last summer, we uncovered a prostitution ring 
that trafficked in Mexican girls, who were lured to the United States 
only to be forced into sexual slavery. Two of the ringleaders were 
sentenced to 18 years in federal prison. In New York City, our 
investigators uncovered a trafficking network that recruited South 
Korean women, promising them jobs as hostesses but forcing them to work 
as prostitutes. These traffickers, and a great many others, are off the 
streets and out of business.
    As in smuggling, ICE is employing innovative methodologies to 
combat human trafficking. ICE is working closely with the Department of 
Health and Human Services, the Department of Justice and various Non-
Governmental Organizations to assist victims of trafficking. Our 
departments recently launched a trafficking initiative in Philadelphia, 
Atlanta and Phoenix that employs a task force configuration with state 
and local law enforcement agencies attacking on multiple fronts the 
criminal organizations and infrastructure that engage and support these 
crimes. Furthermore since March of 2002, in close coordination with our 
partners at U.S. Citizenship and Immigration Services, 371 victims of 
trafficking received ``T'' visas enabling the victims to remain in the 
United States, without fear of removal, to assist law enforcement in 
dismantling these trafficking networks. In the last three years, the 
Department of Homeland Security, and the former INS, has provided over 
70 training sessions with prosecutors, local law enforcement and victim 
advocates to educate them about trafficking issues.
    Human smuggling and trafficking in persons take place within a 
complex global environment of political and economic relationships 
between countries and peoples. ICE's strategy, therefore, in 
coordination with the Department of State, emphasizes the crucial role 
of liaison, technical assistance, information-sharing and diplomatic 
initiatives with government officials and law enforcement agencies in 
source and transit countries to dismantle criminal organizations.
    Within that conceptual framework, the Departments of Homeland 
Security, State and Justice, as well as intelligence agencies, are 
updating the Human Smuggling and Trafficking Center to synthesize 
intelligence, law enforcement and other information to bring more 
effective international action against human smugglers, traffickers of 
persons, and criminals facilitating terrorists' clandestine travel.
    ICE helps facilitate the participation of federal stakeholders and 
provides a mechanism to foster greater integration and overall 
effectiveness to the U.S. Government's enforcement, intelligence, and 
diplomatic efforts, and promotes similar efforts by foreign governments 
and international organizations.
    Smuggling and trafficking are by definition international crimes, 
which is why ICE is prepared to take that fight abroad. We've developed 
a full spectrum of investigation and enforcement to confront the 
problem at every point--in source and transit countries, on the seas, 
at our nation's borders and ports, and in the U.S. interior. In U.S. 
embassies throughout the world, we have a network of ICE attaches, who 
in coordination with the Department of State are working with their 
counterparts in foreign law enforcement agencies to better coordinate 
investigations and communication, and to follow the money and seize the 
millions of dollars in profits flowing from these organizations. We're 
integrating our government's intelligence and enforcement efforts, and 
we're mobilizing other governments and international organizations, in 
the fight against human smuggling and trafficking.
    In conclusion, smuggling and trafficking in human beings are not at 
all new practices--they are criminal methods with a long history. What 
is new is the sophistication of criminal organizations that benefit 
from the speed and efficiency of today's telecommunications, 
transportation, and financial networks. What is new is the security 
threat we face today, in which terrorists will employ any method and 
exploit any vulnerability to strike at our country and people. What is 
new is the war we are fighting against these criminals and terrorists, 
and the tactics, tools, and strategies we must bring to bear to defeat 
them. ICE is dedicated and committed to this mission. We look forward 
to working with this Committee in our efforts to save lives and secure 
our national interests. I hope my remarks today have been helpful and 
informative. I thank you for inviting me and I will be glad to answer 
any questions you may have at this time.

    Mr. Hostettler. Thank you, Mr. Torres.
    Mr. Cutler?

            STATEMENT OF MICHAEL W. CUTLER, FELLOW, 
                 CENTER FOR IMMIGRATION STUDIES

    Mr. Cutler. Good afternoon. Chairman Hostettler, Ranking 
Members Ms. Jackson Lee, Members of the Congress, distinguished 
members of the panel, ladies and gentlemen, I welcome this 
opportunity to provide testimony for this hearing into issues 
concerning enforcement efforts to eliminate alien smuggling. As 
you know, I spent 30 years as an INS employee, 26 of those 
years as a special agent. Additionally, I was part of the 
original anti-smuggling unit in the New York office of the INS 
in the late 1970's. I am here as a former special agent who's 
advocating that the dedicated men and women who are charged 
with the responsibility of enforcing the immigration laws of 
the United States are given the tools and resources they need 
to do a more effective job of protecting our Nation's borders.
    The effective enforcement of these laws is critical to the 
security, indeed, the survival of the United States, especially 
as we prosecute the ongoing war on terror. We cannot defend our 
Nation if we cannot defend our Nation's borders. Alien 
smugglers are, as a group of individuals, pernicious criminals. 
They compromise the security of our borders by facilitating the 
illegal movement of aliens across our borders without being 
inspected as required by law. In so circumventing these laws, 
the aliens who gain entry into the United States are not 
lawfully admitted, meaning that these aliens who could not have 
otherwise gained entry into the United States nevertheless wind 
up on the streets of our cities and town. They are not screened 
as they enter the United States and, thus, we have no record of 
their entry into our country, nor do we have a record of their 
presence here. Consequently, from the moment they enter into 
our country, they do so in violation of law.
    While the majority of the aliens who gain access to our 
country in this fashion do so with the intention of simply 
gaining illegal employment, criminal aliens, including 
potentially terrorists, may also evade the Border Patrol and 
the inspections process with the assistance of smugglers. The 
smugglers are unscrupulous criminals who are often violent and 
endanger the lives of the aliens they smuggle into the United 
States. Time after time we have heard the stories and seen the 
images of the many people who have died as they attempted entry 
into the United States, concealed in overcrowded trucks, in the 
bowels of tanker trucks or in some other hellish situation. The 
abject disregard for the lives of the aliens they smuggle is an 
issue that we never can forget. The smugglers endanger the 
lives of the aliens and the lives of our citizens by providing 
aliens with a means of entering the United States without 
adhering to the inspections process mandated by law.
    Often the smugglers establish so-called safe houses where 
aliens who have been smuggled into the United States are 
virtually warehoused until they can be moved into the interior 
of the United States. The squalid conditions in these safe 
houses endanger the safety of the aliens who remain in these 
houses and also creates health and safety issues for the people 
who live in the surrounding neighborhood.
    Because of the seriousness of this problem, I am in favor 
of Representative Jackson Lee's bill which would provide 
incentives for informants who assist in the elimination or 
disruption of significant alien-smuggling organizations. I have 
had many opportunities to cultivate and work with informants 
throughout my career. Some of the informants with whom I've 
worked were primarily working with other law enforcement 
agencies such as the DEA, ATF, FBI, or local police, while my 
colleagues and I recruited others at the former INS. Informants 
cooperate for many reasons. Some cooperate in an attempt to 
gain a reduction in sentence for having committed a crime; 
others wish to remain in the United States or gain permission 
to accept employment in the United States. Some informants seek 
monetary rewards while still others cooperate out of a desire 
to get even with people against whom they furnish information 
to agents and prosecutors.
    Generally, the informants who were the easiest to work with 
provided their assistance out of a desire to ``do the right 
thing.'' The reality is that often investigations are greatly 
facilitated by informants who act as the eyes and ears of the 
agents. In some instances, they furnish evidence that provides 
the probable cause which leads to the securing of search 
warrants, which, in turn, leads to the seizing of evidence 
thereby furthering the investigative process.
    Recruiting informants can be relatively easy or extremely 
difficult, depending on the informant's background and his or 
her concerns about personal safety and the safety 
considerations of their immediate families. In this regard, the 
availability of a limited number of ``S'' visas to be issued to 
informants and their immediate families can help to allay some 
of these fears. All of these issues--fears, motivation, 
trustworthiness, reliability, and integrity--are among the 
concerns that agents and prosecutors have in cultivating and 
working with informants. But I can assure you that the use of 
informants is a widespread, effective practice throughout the 
wide spectrum of law enforcement on all levels and one which 
enhances the efforts of the Government to establish its goals 
of identifying targets of investigations, gathering evidence, 
and ultimately apprehending and successfully prosecuting 
criminals. When we successfully prosecute criminals, we send a 
message to others who are similarly engaged in criminal 
activities that we have the result and wherewithal to pursue 
these criminals.
    The use of informants certainly sends such a message, as 
does the provision of law that would call for penalty 
enhancements for those who are convicted of alien smuggling. 
Consequently, I believe that the outreach program proposed by 
Representative Jackson Lee is important. The public needs to 
know about the efforts being made to apprehend the criminals 
who violate these laws. This is significant because it may 
encourage potential informants to come forward, and it may help 
to deter some individuals from becoming involved with alien 
smuggling.
    I would also suggest that the efforts to facilitate 
cultivating informants in alien-smuggling cases also be used in 
conjunction with informants who similarly assist in providing 
information that leads to the elimination or disruption of 
large-scale fraud rings. Traditionally, these rings either 
furnish many fraudulent documents to circumvent components of 
the Immigration and Nationality Act or devise schemes which, on 
a large scale, provides aliens with a means of obtaining 
immigration benefits--such as residency and citizenship--to 
which they are not entitled through such schemes as marriage 
fraud and labor certification fraud. I make these 
recommendations in view of the fact that, according to recent 
GAO reports, fraud is highly prevalent in the immigration 
benefits program.
    Finally, I want to reiterate the point that I welcome 
efforts that enhance the enforcement of the immigration 
statutes that would help in securing our Nation's borders and, 
consequently, our Nation's security. I believe that the 
additional discretionary authority should be given to both 
components of the enforcement program, ICE and CBP, to 
facilitate the vital missions of these two agencies.
    I look forward to your questions.
    [The prepared statement of Mr. Cutler follows:]

                Prepared Statement of Michael W. Cutler

    Chairman Hostettler, Ranking member Ms Jackson Lee, members of the 
Congress, distinguished members of the panel, ladies and gentlemen:
    I welcome this opportunity to provide testimony for this hearing 
into issues concerning enforcement efforts to eliminate alien 
smuggling. As you know, I spent 30 years as an INS employee, 26 of 
those years as a special agent. Additionally, I was part of the 
original anti-smuggling unit in the New York office of the INS in the 
late 1970s. I am here as a former agent who is advocating that the 
dedicated men and women who are charged with the responsibility of 
enforcing the immigration laws of the United States are given the tools 
and resources they need to do a more effective job of protecting our 
nation's borders.
    The effective enforcement of these laws is critical to the 
security, indeed, the survival of the United States, especially as we 
prosecute the on-going war on terror. We cannot defend our nation if we 
cannot defend our nation's borders. Alien smugglers are, as a group of 
individuals, pernicious criminals. They compromise the security of our 
borders by facilitating the illegal movement of aliens across our 
borders without being inspected as required by law. In so circumventing 
these laws, the aliens who gain entry to the United States are not 
lawfully admitted, meaning that these aliens who could not have gained 
lawful entry into our country nevertheless wind up on the streets of 
our cities and towns. They are not screened as they enter the United 
States and thus we have no record of their entry into our country nor 
do we have a record of their presence here. Consequently from the 
moment they enter into our country they do so in violation of law. 
While the majority of the aliens who gain access to our country in this 
fashion do so with the intention of simply gaining illegal employment, 
criminal aliens including, potentially, terrorists may also evade the 
Border Patrol and the inspections process with the assistance of 
smugglers. The smugglers are unscrupulous criminals who are often 
violent and endanger the lives of the aliens they smuggle into the 
United States. Time after time we have heard the stories and seen the 
images of the many people who have died as they attempted entry into 
the United States, concealed in overcrowded trucks, in the bowels of 
tanker trucks or in some other hellish situation. The abject disregard 
for the lives of the aliens they smuggle is an issue that we never can 
forget. The smugglers endanger the lives of the aliens and the lives of 
our citizens by providing aliens with a means of entering the United 
States without adhering to the inspection process mandated by law.
    Often the smugglers establish so-called ``Safe houses'' where 
aliens who have been smuggled into the United States are virtually 
warehoused until they can be moved into the interior of the United 
States. The squalid conditions in these safe houses endangers the 
safety of the aliens who remain in these houses and also creates health 
and safety issues for the people who live in surrounding houses.
    Because of the seriousness of this problem I am in favor of Rep. 
Jackson Lee's bill which would provide incentives for informants who 
assist in the elimination or disruption of significant alien smuggling 
organizations. I have had many opportunities to cultivate and work with 
informants throughout my career. Some of the informants with whom I 
worked were primarily working with other law enforcement agencies such 
as the DEA, ATF, FBI or local police, while my colleagues and I 
recruited others at the former INS. Informants cooperate for many 
reasons. Some cooperate in an attempt to gain a reduction in sentence 
for having committed a crime, others wish to remain in the United 
States or gain permission to accept employment in the United States. 
Some informants seek monetary rewards while still others cooperate out 
of a desire to get even with the people against whom they furnish 
information to agents and prosecutors. Generally the informants who 
were the easiest to work with provided their assistance out of a desire 
to ``do the right thing''. The reality is that often investigations are 
greatly facilitated by informants who act as the ``eyes and ears'' of 
agents. In some instances, they furnish evidence that provides the 
probable cause which leads to the securing of search warrants, which, 
in turn, leads to the seizing of evidence thereby furthering the 
investigative process.
    Recruiting informants can be relatively easy or extremely difficult 
depending on the informant's background and his or her concerns about 
personal safety and safety considerations for their immediate families. 
In this regard, the availability of a limited number of S visas to be 
issued to informants and their immediate families can help to allay 
some of these fears. All of these issues, motivation, fears, 
trustworthiness, reliability and integrity are among the concerns that 
agents and prosecutors have in cultivating and working with informants, 
but, I can assure you that the use of informants is a widespread 
practice throughout the wide spectrum of law enforcement on all levels 
and one which enhances the efforts of the government to accomplish it 
goals of identifying targets of investigations, gathering evidence, and 
ultimately apprehending and successfully prosecuting criminals. When we 
successfully prosecute criminals we send a message to others who are 
similarly engaged in criminal activities, that we have the resolve and 
the wherewithal to pursue criminals.
    The use of informants certainly sends such a message, as does the 
provision of law that would call for penalty enhancements for those who 
are convicted of alien smuggling. Consequently I believe that the 
Outreach program proposed by Rep. Jackson Lee is a good idea. The 
public needs to know about the efforts being made to apprehend the 
criminals who violate these laws. This is significant because it may 
encourage potential informants to come forward and it may help to deter 
some individuals from getting involved with alien smuggling.
    I would also suggest that the efforts to facilitate cultivating 
informants in alien smuggling cases also be used in conjunction with 
informants who similarly assist in providing information that leads to 
the elimination or disruption of large-scale fraud rings. Traditionally 
these rings either furnish many fraudulent identity documents to 
circumvent components of the Immigration and Nationality Act, or devise 
schemes which, on a large scale, provides aliens with a means of 
obtaining immigration benefits to which they are not entitled through 
such schemes as marriage fraud and labor certification fraud. I make 
this recommendation in view of the fact that according to recent GAO 
reports, fraud is highly prevalent in the immigration benefits 
programs.
    Finally, I want to reiterate the point that I welcome efforts that 
enhance the enforcement of the immigration statutes that would help in 
securing our nation's border and consequently, our nation's security. I 
believe that the additional discretionary authority should be given to 
both components of the enforcement program, ICE and CBP to facilitate 
the vital missions of these two agencies.
    I look forward to your questions.

    Mr. Hostettler. Thank you, Mr. Cutler.
    At this time we will turn to questions from Members of the 
Subcommittee. Mr. Morton, I would like to ask you a few 
questions with regard to foreign law enforcement's cooperation 
with our anti-smuggling efforts.
    First of all, have you been able to generate intelligence 
on alien smuggling through foreign law enforcement without 
providing rewards, such as monetary rewards or visas?
    Mr. Morton. Absolutely.
    Mr. Hostettler. Have you been able to pursue prosecution of 
alien smugglers abroad in source and transit countries so that 
informants do not have to come to the United States?
    Mr. Morton. I believe we have, but if I can get back to you 
on that question.
    Mr. Hostettler. I appreciate it. And then what more can be 
done to strengthen our ties with friendly law enforcement--
foreign law enforcement to combat alien smuggling?
    Mr. Morton. I think what we're trying to do is that we have 
officers in our embassies overseas, and right now we have the 
resources in place, and it's a matter of us improving those 
relationships that we have with our Federal--our law 
enforcement--host country law enforcement officers out there, 
strengthening those ties that we have to underscore the 
importance to them of what alien smuggling does to us here in 
the United States. And that's some of the direction that we're 
headed.
    Mr. Hostettler. You mentioned in your written testimony 
that 200 individuals have been arrested in the past 6 months 
due to cooperation efforts between your organization and host 
nations' law enforcement. Can you provide some--a couple of 
examples of that?
    Mr. Morton. I can--the 200 arrests were actually as a 
result of 2,000 investigations that we initiated with host 
nation law enforcement people, so that's--that's what has 
resulted in our efforts with these people as a result of the 
200 arrests. We recently had a case in the Boston area where an 
individual was falsifying visas to bring Estonian women over to 
the Boston area to basically work as prostitutes, and that is 
something that we worked with the Estonian law enforcement 
officers on and, of course, our law enforcement colleagues in 
the Boston area. So they're a good example of cooperation not 
only within the Federal law enforcement community, but also 
within the community overseas, the host nation.
    Mr. Hostettler. Thank you.
    Mr. Harris, we've been provided a long list of cases in 
which sentences for alien smugglers seemed to be extremely 
short. I mentioned one of those in my opening statement. Is 
this a major stumbling block with our anti-smuggling efforts? 
For example, have prosecutors given alien-smuggling cases, in 
your experience, low priority because of the short sentences 
that are usually given to alien smugglers?
    Mr. Harris. I would just start off by saying, Mr. Chairman, 
that we, arguably, arrest more people than any other law 
enforcement agency in the world. We make about a million 
arrests a year, and I think if you ask any law enforcement 
officer around, regardless of what agency they're from, they 
would like to prosecute anyone who violates the law to the 
fullest extent.
    In our case, certainly we have to be sensitive to the 
resources that the U.S. Attorney's Offices have to apply to our 
cases. In the large majority of instances, we have excellent 
working relationships with the U.S. Attorney's Offices. I do 
not look at it as a stumbling block. It's simply a resource 
issue.
    Mr. Hostettler. Would you think that sentencing guidelines 
with more severe penalties would deter alien smuggling?
    Mr. Harris. I think our ability to enforce effectively the 
statutes that we have on the books--and if you look at the 
areas on the border where we do have effective control of the 
borders, certainly there's more--there's less people coming 
across the border in those areas, and so we're better able to 
apply the rule of law versus those areas where we do not yet 
have control, just the sheer volume is going to--it's going to 
keep us from being able to prosecute the amount of smugglers 
that we need to. So there's a direct correlation between the 
amount of people that the U.S. Attorney's Offices can prosecute 
and the areas where we have effective border control.
    Mr. Hostettler. For the record, could you give an example 
of that situation where you--I guess the two situations where 
you have a concentrated effort, you have very effective control 
of the borders, in your opinion, and then an area where 
resources may not be sufficient?
    Mr. Harris. When we implemented our new strategy, it 
started off in about 1994 in San Diego. In the San Diego area 
alone, that's a 61-mile stretch of border, the San Diego 
sector. At that time we were making about 600,000 arrests a 
year in that 61-mile stretch of border. That's now down to 
about 100,000 arrests a year.
    That's in comparison to the Tucson sector, which is in the 
Arizona border that was referred to earlier by Ms. Jackson Lee. 
That's a 261-mile stretch of border. We make now about 2,000 
arrests a day in that 261-mile stretch. Now, our efforts are 
focused in the West Desert area. That's about a 100-mile 
stretch of border; that is the most treacherous part of the 
border. That's where we have more problems with the smugglers 
bringing in people there. That's where we had a large number of 
migrant deaths last year. So we're trying to focus on that 
area. The Under Secretary, Department of Homeland Security, and 
Commissioner Bonner recently announced this Arizona Border 
Control Initiative where we're trying to get control of the 
Arizona border, especially before the summer months that are 
coming up.
    Now, the U.S. Attorney in that area, Paul Charlton--we have 
an excellent working relationship with him--he is assisting us 
by focusing on targeting the smugglers who are operating in 
that dangerous area. So just to give you an example, you know, 
that's where our priority is. If we arrest a smuggler that's 
not in that target area, he's going to get a lower priority 
versus somebody who's endangering the migrants and smuggling in 
the West Desert corridor.
    Mr. Hostettler. Thank you, Mr. Harris.
    The Chair now recognizes the gentlelady from Texas for 5 
minutes.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman.
    As I started out this hearing, I indicated that I believe 
the effective role of Congress is to give you more tools and 
more resources that can be utilized effectively. And I wanted 
to pursue that line of reasoning.
    Mr. Morton, I noticed that Ambassador, I believe, Francis 
Taylor indicated in November of 2002 that the Rewards for 
Justice program is one of the most effective weapons in the 
Government's arsenal in the war against terrorism. Would you 
agree with that assessment and, as well, the potential of 
utilizing such a program in the alien-smuggling operations?
    Mr. Morton. First of all, I absolutely agree with 
Ambassador Taylor, my boss, on almost every single issue. The 
Rewards for Justice is an important--it's a critical program in 
the fight against terrorism overseas. It is probably--one of 
our--and thanks to you all for support, one of the most 
important tools in combating terrorism.
    In terms of passport and visa fraud in alien smuggling, I 
think you're asking me whether or not we need a rewards 
program. We believe----
    Ms. Jackson Lee. No. What I'm asking you is whether it 
could be an effective tool?
    Mr. Morton. Rewards can be an effective tool in 
circumstances.
    Ms. Jackson Lee. Thank you, sir.
    Let me move to Mr. Cutler. You heard the premise on which 
I'm operating.
    Mr. Cutler. Yes.
    Ms. Jackson Lee. You spent 30 years in the field with INS. 
You were wounded, I understand.
    Mr. Cutler. Not wounded, but I had hurt my leg during drug 
raids. I've been injured several times in the pursuit----
    Ms. Jackson Lee. And so you know the heightened danger----
    Mr. Cutler. Absolutely.
    Ms. Jackson Lee.--that these officers are experiencing, and 
now the intensity at the border is even more so. Why don't you 
give me an assessment of being able to be equipped with added 
tools? You might use as a backdrop the deck of cards that was 
utilized in Iraq. For a period of time, we were watching over 
the news wires one by one as they collapsed, and reward monies 
were used in that circumstance, of course, with the idea of 
terrorism.
    But in this instance, tools given that would include the 
``S'' visa, which would include only the particular individual 
and a family member, the idea of the rewards program and the 
outreach. We have a defendant now that has 19 counts of murder 
against him. He has to do his own defense, but you can be 
assured that one of his expressions that we heard in the local 
community was, ``I didn't know what I was doing, I didn't know 
anything about it, I didn't understand it.'' But the point is 
truckers from all over the country are sometimes caught up in 
the dollar.
    Can you give me an assessment of the tools that could be 
utilized as they are enunciated in the legislation, the CASE 
Act?
    Mr. Cutler. Well, I think all that you have proposed makes 
sense and would be of assistance, because what you try to do--
and whether you're dealing with alien smuggling, narcotics 
trafficking, any organized crime group, you start low and 
usually work your way up. It's the process of what we all 
flipping or turning informants. You recruit people. And 
basically you wind up giving them a choice: You're facing a 
serious criminal violation. We have different ways of pursing 
it. We can look to have the full weight of the law land on you, 
and then you will become the fall guy for the entire 
organization that employs you. You can work with us; we can 
reduce your sentence through the U.S. Attorney's Office, or at 
least your exposure to sentence if you're convicted. And then 
we can enable you to stay here, protect you, pay you.
    You have to find out what makes that particular person 
tick. Certain people react to certain carrots and certain 
sticks. And it takes, as my colleagues--as my former 
colleagues--I still think of myself as an agent even though I 
no longer carry the badge that I was very proud to carry. I 
think we all know that what you do with each individual has to 
be more or less custom-tailored. You want to be able to 
persuade them, on the one hand, and, on the other hand, you 
have to have them concerned with what will happen if they don't 
cooperate.
    Ms. Jackson Lee. Give them tools.
    Mr. Cutler. Right.
    Ms. Jackson Lee. May I just--Mr. Torres, I think that you 
have used the ``T'' visas, as I understand. I'm familiar with 
that, and both you and Mr. Harris have done an excellent job, 
particularly on the investigatory aspect of it. You've used 
that in human trafficking and done a fairly good job. What is 
your assessment and what--how can we utilize such a mode, if 
you will, in alien smuggling, whether it be the ``S'' visa or 
the reward program?
    Mr. Torres. We look at it from a very similar aspect to 
what Mr. Cutler was saying. You have to apply any tool or 
resource in an individual manner. You have to look at the facts 
of the case. You have to find out what serves as a motivation 
for the purpose--for a person that may be willing to testify or 
cooperate with the Government of law enforcement. So in that 
sense, if you can actually take a look at each individual 
instance and then step back and say, which tools do we have 
here that we can apply to those, that's where we can be most 
effective.
    Ms. Jackson Lee. And that's what a law would be, in 
essence, is--if such a law was passed, it would be ultimately 
tools given to law enforcement who then would ultimately use 
their judgment. Is that my understanding of what you're saying?
    Mr. Torres. And also what I'm saying is that whether that 
law is passed or not--and I don't know the specifics of the 
proposed bill.
    Ms. Jackson Lee. Right.
    Mr. Torres. But from my perspective as a headquarters 
manager, I feel it is my responsibility and my duty to provide 
the tools and the resources to the field agents out there doing 
the job so they can get that job done. And without being able 
to say across the board that we are going to apply this tool to 
all cases, but individually as the facts that take----
    Ms. Jackson Lee. You could be using them, and that could be 
a possible tool to be used.
    Mr. Torres. A possibility.
    Ms. Jackson Lee. Thank you.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Iowa, Mr. King, 
for 5 minutes.
    Mr. King. Thank you, Mr. Chairman. I appreciate your 
holding this hearing today, and I appreciate the testimony of 
the witnesses before us.
    I want to say at the outset, too, that I express the 
gratitude of the region I represent in this country for the 
work of all of you on our borders. You keep us all safe, and 
you put your lives on the line, a number of you here, and 
please pass that along to your colleagues how much we 
appreciate it here in Congress.
    A number of questions come to mind to me, and I think I'd 
address my first question to Mr. Harris. You talked about some 
of the numbers of the border crossings in certain sectors, and 
you addressed the Tucson sector at about 2,000 arrests a day, 
and if you do the math on that, roughly 60,000 in a month. Is 
there any sector of the border where there are more illegal--
more arrests than there are there in the Tucson sector right 
now?
    Mr. Harris. No. Currently, the Tucson sector represents 
about 43 percent of the total arrests along the Southwest 
border. There is no other sector that is even close to Tucson.
    Mr. King. Would it be conceivable that there were as many 
as 248,000 border crossings, not just arrests but those who 
were not arrested, through that sector in a single month?
    Mr. Harris. That's a good question. It's a question that 
I've been asked a few times. In order to measure if we've had a 
border penetration, we have to have the ability to monitor the 
border, either through some sort of a technology; cameras, 
sensors or what have you. Right now we do not have the ability 
to monitor the entire Southwest border, so any estimates on 
what we're not catching would simply be, you know, somewhat of 
an educated guess, so to speak, through sign cutting, sighting, 
other agency calls. So it would be very difficult for me to put 
an actual number on what we're not catching.
    Mr. King. And yet there's speculation before this Committee 
of two or three to one that do get through that are not caught, 
and that would extrapolate out to a number like that. But I'm 
trying to find actually the source of that number. It seemed to 
have some credibility, but I can't get anybody to actually take 
credit for the number.
    If that would be the case--and I would just point out that 
248,000 border crossings in a single sector in a single month, 
and that would be my understanding of the peak after a January 
speech by our Commander-in-Chief addressing our border issues--
that that would constitute almost twice as many troops as it 
took to invade and occupy Iraq. I point that out because it's a 
measure of the magnitude of the border crossings that we have, 
and I think it's astonishing, the level of success that you 
have, given the magnitude of the difficulty.
    And then roughly 100 dead crossing the border through the 
single sector, and we have on this Committee seen some numbers 
of around 230 a year along the Southern border altogether as a 
total fatality rate. There were 11 found in a train car in 
Denison, Iowa, in September, I think, a year and a half or so 
ago. And so that hits home me very much.
    But do you have any idea how many American citizens are 
murdered by illegal aliens in this country every year?
    Mr. Harris. No, sir.
    Mr. King. Mr. Torres, would you have any idea?
    Mr. Torres. No, sir, I do not.
    Mr. King. Mr. Cutler?
    Mr. Cutler. Well, I could go back to a statistic that I 
think I discussed at a prior hearing. When I was assigned to 
the Unified Intelligence Division at DEA, I did an analysis of 
the arrest statistics. We found that 60 percent of the people 
arrests for narcotics trafficking in New York were foreign-
born, 30 percent nationwide. And I recently did some checking 
and found that, according to the Bureau of Prisons, 
approximately 30 percent of the inmate population is comprised 
of aliens.
    So it should give you a yardstick. It's not a direct answer 
to your question, but I hope it helps you to grasp the 
magnitude of the problem we face because of this.
    Mr. King. I thank you, Mr. Cutler, and I'd point out that I 
think that that's the measure that we need to have here, to 
some extent, and that is that, yes, it's dangerous for our 
border to be crossed illegally, and that does provide a 
deterrent, and the oceans have provided deterrence for illegal 
entry into there country. And so--but it's also dangerous for 
American citizens if we're not able to control safety within 
our borders.
    I would also point out that the suggestion that there has 
been, in the media, at least, to put up water stations along 
the way would simply become those stopover points that would 
encourage more illegal immigration, just like posting the Coast 
Guard at intervals across the ocean. But would you have then, 
Mr. Cutler, an opinion on whether there would be--what the 
implications would be if we set up a system of fast track for 
citizenship for one who was successful in assisting the 
investigation of an alien smuggler? And would it be a precedent 
to establish an opportunity for citizenship for someone who was 
actually a criminal?
    Mr. Cutler. Well, if I understand what you're suggesting, 
this would be used as a reward for an informant to fast track? 
Well, you know, we reward aliens who come to the United States 
and become involved in the military during an emergency 
situation, during a war and that sort of thing. If it was done 
in a very controlled way and the person wasn't a criminal but 
simply someone who was an informant, it might perhaps be 
useful. I just don't know. I'm just leery about giving out 
citizenship as that kind of a thing, because the idea of 
keeping somebody in the United States so that they don't have 
to go home and face possible violence I think makes sense. 
Citizenship is something I have certain reservations about. But 
I think if it was significant enough and we could show that the 
person really endangered his or her safety in assisting us, 
then perhaps it would make sense to do that.
    Mr. King. Thank you, Mr. Cutler.
    Thank you, Mr. Chairman. I yield back.
    Mr. Hostettler. I thank the gentleman.
    The Chair now recognizes the gentlelady from California for 
5 minutes, Ms. Sanchez.
    Ms. Sanchez. Thank you.
    Mr. Cutler, in your experience as part of the anti-
smuggling unit in New York, did you find that smuggling rings 
were operated by criminals based in the United States or in 
country abroad, or both?
    Mr. Cutler. Actually, it's both. It's almost akin to what 
happens with narcotics. Narcotics, for the most part, are grown 
outside the United States, smuggled into the United States. The 
aliens come from outside the United States and enter the United 
States from foreign countries. Very often you would see where 
aliens were massing in Mexico, or even other countries, 
depending on what part of the world they were coming from. But 
Mexico certainly had a--it was a way station, basically, on the 
way into our country.
    Ms. Sanchez. Right. This hearing is about expanding our 
borders and attacking alien smugglers where they solicit 
immigrants. Given your experience at INS, what was the most 
effective way to do that? Is it by addressing the document 
fraud issue, as Mr. Morton recommends, or is it using 
informants to focus on the smuggling ring specifically?
    Mr. Cutler. I think you've got to approach it from all 
aspects. You know, I used to talk about the enforcement tripod, 
that you've got to look at the border, you've got to look at 
the inspections, Border Patrol, and interior enforcement. And 
it's the same thing when you're dealing with the issue that 
we're discussing today. You know, if you have a dike with a lot 
of holes in it, water pours out of the holes. If you plug just 
a couple of the holes, the same amount of water will still come 
through. I know you're a mechanical engineer. I think the same 
amount of water will ultimately come through the dike, but it 
will just mean that it will be pouring faster through the 
openings that you've left intact.
    So what we really want to do is to approach it from every 
aspect with the limited resources we have being made most 
effective use of. So it's not one issue. We need to do the 
whole spectrum of things, in my belief.
    Ms. Sanchez. I'm just trying to sort of flesh out this 
connection, if there is one, between the operation of the visa 
and passport fraud rings and the alien-smuggling rings, because 
they seem to me to be tenuously related but----
    Mr. Cutler. Not tenuously. They're directly related. The 
goal is to get to the United States. If you have the 
wherewithal and I gave you a choice, how would you rather come 
to the United States--obtain a passport by fraud in a different 
name, get a visa, or come in perhaps under the visa waiver 
program, of which I remain very critical, and then you just sit 
on an airplane, sip a glass of wine, watch a movie, and land at 
a port of entry and stroll to a waiting car, or endure the 
conditions that we've talked about on the border?
    The point is that both ways provide access to the interior 
of the United States by aliens looking to work, aliens looking 
to become involved in crime, or terrorists. These are just 
methods of entry.
    And the one suggestion that I would make to perhaps clarify 
it for you is to think of a port of entry, even an airport in 
the middle of the United States, as being an extension of the 
border. And what you're looking to do is gain access to that 
border.
    Ms. Sanchez. Right. I'm sort of trying to look at the issue 
of if we're talking about expanding our borders and trying to 
prevent this type of smuggling that goes on outside of U.S. 
borders, what would be the most effective ways to do that? And 
it seems to me that there's a very strong argument to be made 
for trying to find informants who can talk about where the 
solicitation is taking place outside of the United States 
before it becomes a problem in the United States.
    Mr. Cutler. Well, that's right because, again, the aliens 
are coming here from outside the United States, and while 
perhaps as many as 80 percent of the illegal aliens are 
Mexicans, 20 percent aren't. And that number is what was 
estimated back when I was still with the agency. I would 
suspect you would agree that it would be around 80 percent, 
probably, for Mexico. Maybe I'm wrong on that? Mexicans 
primarily.
    Mr. Harris. Ninety-seven percent.
    Mr. Cutler. Okay. And you're not taking into account the 
other, you know, port of entry situations. So my point is, 
though, that you need to have people stationed at embassies, 
and, by the way, just as another point, and bear with me. I 
have worked with other governments. I worked very closely with 
the Israeli national police. In fact, in so doing, we helped to 
prevent a bombing back in the 1970's in Israel. I have worked 
with the Japanese Government and with the Canadians. And by 
working cooperatively and having an ongoing, one-on-one 
relationship where you could pick up a telephone, I've got to 
tell you, there's nothing more effective than that kind of 
person-to-person contact by law enforcement because then you 
really wind up working as a team.
    Ms. Sanchez. I appreciate your answer, and I have limited 
time, so I'm going to----
    Mr. Cutler. Okay. I'm sorry.
    Ms. Sanchez. Mr. Torres, in your testimony, you mentioned 
the full spectrum of investigation and enforcement methods that 
ICE is using abroad to fight alien smuggling internationally. 
Can you give me a little more detail on the investigation and 
enforcement activities and perhaps a specific example of a 
success story where ICE stopped a smuggling ring abroad?
    Mr. Torres. Yes. We have numerous offices in various 
countries around the world stationed at embassies and 
consulates where we work closely together with the host 
governments, the State Department, and other agencies to use 
the intelligence that is out there and identify where the 
migration is occurring, where the actual smuggling is taking 
place, and in some instances working closely with the host 
government, for example, of Mexico, to prevent people that are 
being smuggled from Central America through Mexico up through 
the Southern border into the interior of the United States. So 
in those cases, we seek to prevent that smuggling from 
occurring into the United States by having--working with the 
Mexicans down in Mexico.
    Ms. Sanchez. Okay. Thank you. I yield back the remainder of 
my time.
    Mr. Hostettler. I thank the gentlelady.
    The Chair now recognizes the gentleman from Arizona, Mr. 
Flake.
    Mr. Flake. Thank you, Mr. Chairman. I appreciate the 
testimony of the witnesses, and I want to thank personally Mr. 
Harris and Mr. Torres for what you're doing in Arizona. It has 
made a difference in the murder rate, and, I mean, Operation 
ICE Storm has been successful in targeting some of these 
activities.
    That said, Mr. Cutler mentioned that only a percentage of 
those who are coming here, who are benefiting, are employing 
smugglers, are coming for criminal activity. Would you care to 
try to put a percentage on those who are simply coming to 
engage in illegal work, would you say, or to be an illegal 
worker as opposed to those who are coming to commit criminal 
acts?
    Mr. Harris. No, sir, I wouldn't--I wouldn't put a--I 
wouldn't venture an estimate on that. I'd just say from our 
perspective, I mean, if they're coming into the United States, 
they're in violation of law.
    Mr. Flake. Right.
    Mr. Harris. I would imagine that most of them are coming 
over here for economic purposes, but no way of really knowing 
that.
    Mr. Flake. I've heard estimates from Border Patrol and from 
other sources that put that number well in the 90's; 99 percent 
even some say come for economic reasons as opposed to commit 
criminal acts. Would it be--make your job easier if there were 
a legal avenue for those who simply want to come to work--to be 
able to come, work, and then return home so that you might 
target those who are actually employing, or would it put 
smugglers completely out of business if we were to take care of 
the economic reasons people are coming through a legal 
framework, much like the President has suggested? Mr. Torres?
    Mr. Torres. The thing that raises my concern at that 
suggestion is that--is the enforcement part of that suggestion. 
When you talk about the incentive of people who come here 
legally to work, then it depends on who is going to be 
identified as that population, only a small population from one 
country, a large population from many countries, people that 
are currently here, people that are seeking to get here. The 
thing that worries me is providing another incentive for more 
people to try to get here illegally, and it is a concern that I 
do have.
    Mr. Flake. Do you, Mr. Harris and Mr. Torres, see a time 
when you're going to win this war of smuggling? Or what do you 
see for the future? Is it going to be much like the drug war 
where we're just going and going and going and trying to make 
progress where we can, or do we win this war? Can you shut 
smugglers down?
    Mr. Harris. Well, I think it's--in any illegal enterprise, 
if there's a profit to be made, somebody is going to continue 
to try and make that profit. You know, we can--we will and 
continue to do the best that we can to attack this smuggling 
situation. I think it will--as we're more effective, it's going 
to become more lucrative, but they're going to have to become 
more sophisticated to defeat our border control efforts.
    Mr. Flake. I've heard figures that during the Bracero 
program in the 1950's--and there were a lot of problems with 
the Bracero program, obviously, but it did provide a legal 
framework for people to come and then return home, that 
apprehensions at the border actually went down 95 percent. Does 
that ring true, or do you have any facts or figures to dispute 
that number?
    Mr. Harris. I wasn't around when the----
    Mr. Flake. Right, I understand that. Nor was I.
    Mr. Harris. I'll just say that the cornerstone of our 
strategy is based on prevention through deterrence. That's how 
we changed our way of operating back in the early 1990's. So 
anything that is going to prevent people from trying to cross 
the border illegally, whether it's a Border Patrol agent there 
or a camera, a sensor, or some piece of legislation, you know, 
we're probably going to welcome that to force people to try to 
come into the United States legally and not illegally so that 
we can determine who is coming into our country and for what 
purposes, whether it's for criminal purposes or whether it's 
for economic purposes.
    Mr. Flake. I thank the Chairman.
    Mr. Hostettler. I thank the gentleman.
    Ms. Jackson Lee. May I have an additional 30 seconds?
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Let me just do very quick things because I 
did not get a chance to thank--first of all, to thank Mr. 
Harris. He said something at the end, if he gets an additional 
camera, additional resources, or additional legislation, and 
that's simply what we're trying to do here today, is to give 
the tools, the ``S'' visa. I want to make it very clear--I 
think Mr. Torres knows--it's not citizenship. It is simply a 
status that you, the law enforcement, would determine whether 
or not that individual, as Mr. Cutler said, whether you would 
use it. And the same thing with the idea of a rewards program, 
but the outreach, I think, would enhance your work by letting 
those on this side of the border--truck drivers who think 
they're just carrying chicken cargo--realize how serious this 
is. And I just want to know, Mr. Harris, if those tools would 
be helpful to you if you had legislation, it would give you 
more tools to fight alien smuggling.
    Mr. Harris. I have not had the opportunity--I'm not 
familiar with your piece of legislation, but, again, I think 
any law enforcement officer is going to welcome something that 
helps them do their job with regard to the rewards program and 
some of the other items that have been discussed today. It 
would depend on how they're implemented. Mr. Torres said, you 
know, people are motivated by different things, and sometimes 
money won't work. Sometimes a visa won't work. So it has to be 
selective. The law enforcement officers have to have discretion 
on how that's used so that it can be a tool that helps them do 
their job. And I believe that's what you're talking about.
    Ms. Jackson Lee. Thank you very much.
    Mr. Chairman, thank you for helping me clarify that on the 
``S'' visa, and I hope--as we conclude this hearing, might I 
say that I hope we can work together in a bipartisan way to be 
able to move these tools, and in this instance this 
legislation, to be able to be effective on behalf of the work 
that these men are doing and these agencies are doing.
    So thank you very much. Thank you, gentlemen, for your 
testimony.
    Mr. Hostettler. I thank the gentlelady.
    Without objection, all Members will have 7 legislative days 
to make insertions in the record.
    Gentlemen, I want to thank you for your participation as 
well as your service, both present and past, in order to 
maintain and enforce our laws. Thank you very much.
    The business before the Subcommittee being completed, we 
are adjourned.
    [Whereupon, at 3:25 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

       Prepared Statement of the Honorable Sheila Jackson Lee, a 
Representative in Congress From the State of Texas, and Ranking Member, 
        Subcommittee on Immigration, Border Security, and Claims


    Last year, 340 people died trying to cross the border. As of May 1, 
2004, 82 more people have died, and that number will soar during the 
``death season,'' which is from May to September when the number of 
crossings is highest. This must stop. The most effective way to stop 
large scale illegal immigration would be to establish a sensible 
immigration program. Several bills have been introduced recently that 
would make the necessary changes in our immigration laws, such as my 
Comprehensive Immigration Fairness Reform Act of 2004, H.R. 3918, but 
we cannot wait for major immigration reform to address this problem.
    We must act now to reduce the deaths. I have introduced a bill that 
would help in achieving that objective, the Commercial Alien Smuggling 
Elimination Act of 2003, the CASE Act, H.R. 2630. It would do this by 
establishing a three-point program which has been designed to 
facilitate the investigation and prosecution, or disruption, of 
reckless commercial smuggling operations.
    The first point in this program would be to provide incentives to 
encourage informants to step forward and assist the federal authorities 
who investigate alien smuggling operations. The Immigration and 
Nationality Act (INA) presently provides a nonimmigrant classification 
for aliens who assist the United States government with the 
investigation and prosecution of a criminal organization or a terrorist 
organization. My bill would establish a new, third category for aliens 
who assist the United States government with the investigation, 
disruption, or prosecution of alien smuggling operations.
    S visas are not controversial. Senator Edward Kennedy introduced 
legislation (S. 1424) to establish permanent authority for the S visa 
program on September 13, 2001, two days after the 9/11 terrorist 
attacks. The Senate passed S. 1424 by unanimous consent that same day. 
The House passed S. 1424 by unanimous consent on September 15, 2001. On 
October 1, 2001, President Bush signed the bill into law as P.L. 107-
45.
    The S visa is a useful tool when it is needed, but it is not needed 
frequently. In FY 2002, only 42 S visas were issued to informants and 
37 to their family members. In FY 2003, only 30 S visas were issued to 
informants and 28 to their family members. In FY 2004, through May 13, 
2004, only 30 S visas have been issued to informants and 22 to their 
family members. This is not an immigration program. It is an 
accommodation to make it possible for the government to get information 
from informants.
    The new S visa classification in my bill would be offered to 
potential informants by the State Department and the Justice 
Department, in addition to the Homeland Security Department. Alien 
smuggling operates cross international lines. No single federal agency 
can deal with it.
    The bill also would establish a rewards program to assist in the 
elimination or disruption of commercial alien smuggling operations in 
which aliens are transported in groups of 10 or more, and where either 
the aliens are transported in a manner that endangers their lives or 
the smuggled aliens present a life-threatening health risk to people in 
the United States.
    This is not a controversial provision either. The rewards program 
in my bill is virtually the same as the one the State Department 
presently uses to obtain informants in cases involving terrorists. The 
State Department rewards program has been very successful. Perhaps the 
most famous example is the case last year in which a $30 million reward 
was given to individuals who had provided critical information which 
led to the location of Uday and Qusay Hussein.
    I am concerned about the safety of the people who become 
informants, so my bill also would establish a protection program that 
would be available to investigators and prosecutors using informants in 
connection with investigating, disrupting, or prosecuting alien 
smuggling operations.
    The second point in the program would be a penalty enhancement 
provision. In the case of a person who has been convicted of smuggling 
aliens into the United States, the sentencing judge would be able to 
increase the sentence by up to 10 years. This only would apply to cases 
in which the offense was part of ongoing commercial smuggling 
operations, the operations involved the transportation of aliens in 
groups of 10 or more, and either the aliens were transported in a 
manner that endangered their lives or the smuggled aliens presented a 
life-threatening health risk to people in the United States.
    The third point would be an outreach program. It would require the 
Secretary of Homeland Security to develop and implement a program to 
educate the public here and abroad about the penalties for smuggling 
aliens. The program also would distribute information about the 
financial rewards and the immigration benefits that would be available 
for assisting in the investigation, disruption, or prosecution of 
commercial alien smuggling operations.
    I believe that this can be a bipartisan bill and that the three-
point program it would establish would reduce the number of deaths from 
reckless alien smuggling operations.
    Thank you.

                               __________
Prepared Statement of the Honorable Linda T. Sanchez, a Representative 
                in Congress From the State of California

                              INTRODUCTION

    I thank Chairman Hostettler and Ranking Member Jackson Lee for 
convening this Subcommittee hearing today about the issue of alien 
smuggling.

                   ALIEN SMUGGLING INCIDENT IN WATTS

    The abuse, mistreatment, and danger of alien smuggling recently hit 
very near my district in California. Just a few weeks ago, I was 
shocked and saddened when I learned about treatment of immigrants in an 
alien smuggling ring two blocks from my district. Agents from the 
Bureau of Immigration and Customs Enforcement raided a small house in 
Watts. The small bungalow was used as a ``drop house'' by alien 
smugglers, and when federal agents went inside, they found over 100 
immigrants mainly from Ecuador, Guatemala, and El Salvador. These men, 
women, and children were mercilessly crammed into a 1,100 square feet 
house under inhuman conditions.
    The house was in a state of squalor, the aliens had no lights, and 
they were literally stacked on top of each other. The doors of the 
house were chained so that the immigrants had no means to get out. And 
inside, federal agents found pistols, pellet guns and a machete inside 
that were certainly used to threaten, intimidate, and coerce the 
immigrants into doing whatever the smugglers told them to.
    To make matters worse, the only way the alien smugglers would 
release the immigrants from these deplorable and abusive conditions was 
for their families to pay ransoms that ranged from $1,500 to $9,000. 
But now that this smuggling house has been raided, the immigrants are 
the ones left in nearly helpless circumstances. Their smugglers have 
abandoned them, they are in an unfamiliar country and they likely have 
no way of contacting their families.
    Sadly, stories like what happened in Watts are not uncommon in the 
Los Angeles area, which has been a hub of illegal alien smuggling for 
years. But as the Watts house illustrates, alien smuggling has now 
become a lucrative business for violent criminal organizations that 
will do anything to make a profit, including endangering the lives of 
immigrants they are sneaking into the United States. More immigrants 
will suffer abuse or die if we do not get tough on alien smuggling 
rings and improve law enforcement agency's ability to investigate and 
apprehend the leaders of the smuggling rings.

                      H.R. 2630, THE ``CASE ACT''

    H.R. 2630, the Commercial Alien Smuggling Elimination Act, or CASE 
Act, which my colleague Rep. Jackson Lee introduced and I cosponsored, 
will do that. This very important bill will increase the prison 
sentences of alien smugglers by up to 10 years. It will also 
drastically help law enforcement investigations of alien smuggling 
rings by offering rewards up to $100,000, and allowing alien 
informants, their spouses, children, and parents to adjust to LPR 
status if they supply reliable information about smuggling rings.
    Passing the CASE Act is an important step toward shutting down 
alien smuggling rings, but given the number of immigrants who die each 
year in the smuggling rings, Congress and federal agencies must do 
more. I think that stopping smuggling rings abroad, before they pack 
immigrants into trucks or attempt to smuggle them into the United 
States in other dangerous ways, will reduce the number of smuggling 
related deaths each year. I am interested in hearing the testimony from 
our witnesses about how our agencies can attack alien smuggling rings 
at the source before more lives are lost and more immigrants are 
exploited.

                               CONCLUSION

    I thank Ranking Member Jackson Lee for being a leader on this issue 
by introducing the CASE Act, and I thank both the Ranking Member and 
Chairman for convening this hearing.
    I yield back.

                               __________
  Prepared Statement of the Honorable Steve King, a Representative in 
                    Congress From the State of Iowa

    Mr. Chairman, Thank you for holding this hearing today. Alien 
smugglers must be stopped. Smugglers have reached into my district. The 
bodies of eleven people were found in a train car in Denison, Iowa. The 
people in the car were left there to die by smugglers who were trying 
to get them into the United States illegally.
    I believe we need tougher sentences for alien smugglers. We must 
also allocate more resources to uncover smuggling rings overseas to 
stop smugglers before they ever reach the border. This would include 
more officers at our consulates abroad and ensuring better cooperation 
of foreign law enforcement. We must also prioritize our anti-fraud 
efforts to ensure fake documents cannot be used to slip through the 
borders.
    I look forward to hearing from the witnesses today. Thank you, Mr. 
Chairman.

                               __________
Prepared Statement of the Honorable Elton Gallegly, a Representative in 
                 Congress From the State of California

    Thank you for holding this hearing, Mr. Chairman. I am very 
concerned about the illegal immigrant smuggling trade and the havoc it 
wreaks on both the people being smuggled and on the United States.
    One proposal would grant visas and ultimately citizenship to those 
who inform on smuggling rings. I have serious reservations about taking 
this approach. First and foremost, immigrant smuggling informers are 
likely to also be involved in the trade. If visas were used as a 
reward, the benefits of ratting on a competitor would not only lead to 
the incarceration of that competitor but a legal right to pass in and 
out of the United States for the snitch. The opportunities for 
exploitation by rival organized crime groups are too great.
    Also, I firmly believe there are more productive ways to combat 
immigrant smuggling. I think a good place to start is to combat the 
implements of the trade--such as banning non-secure ID cards like the 
matricula consular. Steve McCraw, with the Office of Intelligence at 
the FBI, testified last year about the use of matricula consular and 
fraudulent matricula consular by alien smugglers. According to his 
testimony, federal law enforcement officers have arrested alien 
smugglers that had in their possession as many as seven different 
matricula consular cards. These cards are used to disguise the 
identities of the smuggler and his charges. Matricula consular also 
serve as a magnet for illegal crossers--they are handed out by 
immigrant smugglers, giving illegal immigrants a document to travel 
throughout the US, set up utilities, and assume new identities. In 
fact, just last month, over 100 illegal immigrants who were being 
smuggled across the country were apprehended with a variety of 
documents, real and fake, including the matricula consular card. They 
had used these non-secure documents to board a domestic flight.
    I would also support longer sentences for immigrant smugglers. The 
base sentence for immigrant smuggling is 6 months to 1 year--far too 
low to deter this sort of organized crime. Increasing penalties for 
human smuggling would recognize the heinousness of this crime and the 
threat it represents to those who are smuggled. It would also recognize 
the threat poses to law and order and the effective control of US 
borders.
    Again, thank you for holding this hearing Mr. Chairman. I yield 
back my time.

                                 <all>

</pre></body></html>
